.,   '&        !,




            THE UTiliZATION AND QUALITY
              CONTROL PEER REVIEW
          ORGANIZATION             PRO         PROGRAM
                         SANCTION ACTIVITIES




            t"ylt"




     t- 9
          ."4JU

     OFFICE OF INSPECTOR GENERAL
     OFFCE OF ANALYSIS AND INSPECTONS

                                                 OCTOBER 1988
..                                                                        ..._.




                         Office of   j:iispector enefral
     The mission of the Office of Inspector General (OIG) is to

     promote the efficiency, effectiveness , and integrity of programs

     in the United states Department of Health and Human Services
     (HHS). It does this by developing methods to detect and prevent
     fraud , waste, and abuse. Created by statute in 1976 , the
     Inspector General keeps both the Secretary and the Congress fully

     and currently informed about programs or management problems and



     country.
     recommends corrective action. The OIG performs its mission by

     conducting audits, investigations, and inspections with

     approximately 1, 200 staff strategically located around the

                      Office of Analvsis and Inspections

     This report is produced by the Office of Analysis and Inspections

     (OAI), one of the three major offices within the OIG. The other

     two are the Office of Audit and the Office of Investigations.

     OAI conducts inspections which are typically short-term studies

     designed to determine program effectiveness , efficiency, and

     vulnerability to fraud or abuse.



                                 This Report

     Entitled "The Utilization and Quality Control Peer Review
     Organization (PRO) Program: Sanction Activities " this report
     examines the sanction process followed by the PROs and the OIG
     concerning those physicians and providers who have failed to meet
     the obligations required under Title XVIII of the Social Security
     Act. It is  part of a broad-based study that examines the overall
     performance of the PRO program.


     The study was carried out under the direction of Mark R. Yessian,
     Ph. , Regional Inspector General, Office of Analysis and
     Inspections , Boston Region. Participating in the project were
     the following people:


     Boston Reqion
                                   Headquarters
     Cynthia Piltch, M.
                              Cathaleen Ahern

       (Project Leader)
                              Brian Rawdon

     Martha Kvaal , M.

     Joyce Greenleaf, M.

     Lauren Smith

     Thomas Nee

..




                    THE UTILIZATION AND QUALITY CONTROL

                  PEER REVIEW ORGANIZATION (PRO) PROGRA:

                            SANCTION ACTIVITIES




     RICHARD P. KUSSEROW
     INSPECTOR GENERAL                                     OCTOBER 1988
     CONTROL # OAI-01-88-00571
                        . . . . .. .. . . .. . . . . .. . . .. . . .. . .. . .. .. . .
                                                                                   . .




I.


                                         TABLE OF CONTENTS

     EXECUTIVE SUMY
     INTRODUCTION

     BACKGROUND OF THE PRO PROGRA

          Creation of the PRO program.
          First Scope of Work (1984-1986) . 

          Second Scope of Work (1986-1988). . . 

          COBRA And OBRA 1986 Provisions. 

          visibility and Vulnerability of the PRO Program.

          Administration and Oversight of the PRO Program.
          The Pros I Quality Review and Intervention Procedures. 

          The Sanction Process. . 

     FINDINGS                                                                      . . 10

          Sanction referral authority strengthens the PROs 

          ability to carry out their overall mission.                                    . 10


          There is considerable variation among PROs in the
          number, quality, and type of sanction recommendations
          referred. €                                                              . . 12


          The PROs I sanction referral authority is the most

          controversial aspect of their responsibilities.                          . . 13


          The current sanction process appears to have serious

          flaws that undermine its effectiveness.             . " . 14

          Most respondents thought that the PROs I process for€
          identifying quality of care problems is free from

          systemic bias against rural physicians and providers.                    . . 18


     RECOMMENDATIONS€                                                              . . 19


     APPENDIX I€
          ENDNOTES.€

     APPENDIX II

          BACKGROUND OF THE PRO INSPECTION. 
                                      . . 23


     APPENDIX III

          METHODOLOGICAL NOTES. 
                                                        . 26


     APPENDIX IV€
          SUMY OF              PRO-RELATED STUDIES
                                . . 31


     APPENDIX V

          THE PROS WITH MORE THAN ONE CONTRACT. . 
                                      . 34

:.

     I .€
                                ._"€   ..     .. . . . . .-. . . . . . . . . . . .
                                            . .   . . . . .. . . . ..----. . .. .. . . .. . .
                                                                                           . .




                       "P._._
            APPENDIX vt
                 COMPARISON OF 1984 SCOPE OF WORK TO 1986
                   SCOPE OF WORK. .                                                              . 35

            APPENDIX VII
                 SANCTION PROCEDURES FOR CASES OF GROSS AND FLAGRANT
                   AND SUBSTANTIAL NUBER OF SUBSTANTIAL VIOLATIONS.                              . 37

            APPENDIX VIII
                 SUMRY OF   RECENT PRO-RELATED
                   LEGISLATIVE PROVISIONS. .                                               . . 40
            APPENDIX IX€
                 MEMORABLE " PRO-ISMS"€                                                          . 45

            APPENDIX X
                 REVISED PRO SANCTION PROCEDURES.
            APPENDIX XI€
                 INTRODUCTION€                                                                   . 52
                 TABLES    A-D. .€                                                       . . : 53
            APPENDIX XII
                 COMMENTS ON OIG DRAFT REPORT AND OIG RESPONSE TO
                   COMMENTS. .
                          EXECUTIVE SUMRY
PURPOSE AND OBJECTIVES:
This is the second in a series of inspection reports assessing
the performance of the Utilization and Quality Control Peer
Review Organization (PRO) program. The purpose of this PRO
inspection is to promote a better understanding of the PROs
mission and activities. The PROs' sanction authority is an
essential element of their mission to protect Medicare
beneficiaries from abuse and substandard care. This report
focuses on a review of those activities within the context of the
PROs ' overall quality assurance efforts.

BACKGROUND

The inspection grew out of the Inspector General' s desire to
obtain a broad perspective on the PROs I performance during their
second contract period (1986-1988). To that end, we pursued
three primary lines of inquiry: (1) interviews with 211
individuals associated with the PRO program , including all the
PRO Chief Executive Officers (CEOs) and representatives of other
Government, provider and consumer groups associated with the
PROs , (2) site visits to 12 PROs selected for case study, and
(3) review of pertinent literature and data bases.

FINDINGS
     SANCTION REFERRL AUTHORITY STRENGTHENS THE PROS' ABILITY TO
     CARY OUT THEIR OVERALL MISSION. The vast maj ori ty of
     respondents from all groups represented in this study
     articulated the importance of the PROs I sanction authority.
     Such authority gives the PRO program teeth and its sentinel
     effect " gets people' s attention. This facilitates the
     PROs I efforts to correct substandard medical practices
     without actually having to recommend a sanction. The
     majority of respondents also thought that the sanction
     process will be further strengthened by the recent
     procedural changes that grew out of discussions held by the
     Heal th Care Financing Administration (HCFA) and the Office
     of Inspector General (OIG) with the American Association of
     Retired Persons (AAP) and the American Medical Association
     (AM).    Those revised PRO sanction procedures are expected
     to help ensure adequate due process for all physicians and
     prov iders.

     THERE IS CONSIDERABLE VARIATION AMONG PROS IN THE NUBER,
     QUALITY AND TYPE OF SANCTION RECOMMENDATIONS REFERRED. Most
     sanction activity has come from a relatively small number of
     PROs. Available data and evidence suggest that the level of
     the PROs ' sanction activity may be related to their
     organizational philosophies , quality review systems , and
degrees of association with their local medical societies.
However , more information is needed before drawing
conclusions about the reasons for and implications of the
PROs I variations in sanction activity.

THE PROS' SANCTION REFERRL AUTHORITY IS THE MOST CONTROVER-
SIAL ASPECT OF THEIR RESPONSIBILITIES. Despi te the rela-
tively small number of sanctions to date, the sanction
process has engendered heated controversy, widespread
publicity and extensive congressional attention because it
pits the economic livelihood and due process rights of
physicians and providers against the quality of care rights
of Medicare beneficiaries.

THE CURRENT SANCTION PROCESS APPEARS TO HAVE SERIOUS FLAWS
THAT UNDERMINE ITS EFFECTIVENESS. These include:
     the PROs I problems in referring acceptable sanction
     recommendations to the OIG which are due in part to
     difficulties in (1) interpreting statutory and
     regulatory definitions and requirements related to
     sanctions , and in (2) providing adequate documentation
     of physicians I or providers I " unwillingness or lack of
     ability " to comply with their obligations under
     section 1156 of the Social Security Act;

     the lack of clarity, consistency, and coordination of
     sanction guidelines and interpretations given to the
     PROs by HCFA and the OIG and by the lack of consistent
     sanction data collected by the two agencies;

     the PROs I confusion and conflict inherent in their
     concurrent education and sanction enforcement roles;€
     and€
     the current lack of viability of the monetary penalty
     as an al ternati ve method of sanctioning a physician or
     provider.
Evidence suggests that such limitations may have had a
chilling effect on the PROs I sanction activity over the last
year.€
     MOST RESPONDENTS THOUGHT THAT THE PROS I PROCESS FOR
     IDENTIFYING QUALITY OF CAR PROBLEMS IS FREE FROM
     SYSTEMIC BIAS AGAINST RURAL PHYSICIANS AND PROVIDERS.
     Nonetheless, evidence to date seems to suggest that
     rural physicians have been sanctioned at a higher rate
     than those in urban settings. There are several
     possible explanations for such an anomaly, including a
     bias in the PROs' sampling or review methodologies, or
     an inability or unwillingness of rural physicians and
-.



               provide-r:t6 correct substandard medical practices
               identified by the PROs. The  information necessary to
               determine why more rural than urban physicians have
               been sanctioned is currently unavailable.


                              RECOMMENDATIONS

     In view of the issues raised by this report and by the OIG'
     experience with the sanction process , we offer two sets of
     recommendations: one directed to the Department of Health and
     Human services (DHHS) in general and the other to HCFA in
     particular.
     The Department

          THE DEPARTMENT SHOULD SUBMIT A LEGISLATIVE PROPOSAL TO AMEND
          SECTION 1156 OF THE PRO STATUTE TO STRENGTHEN THE MONETARY
          PENALTY AS AN EFFECTIVE ALTERNATIVE SANCTION. THE LAW
          SHOULD BE AMENDED TO ALLOW FOR AN IMPOSITION OF A MONETARY
          PENALTY OF UP TO $10, 000 PER V!OLATION FOR SUBSTANDARD,
          UNNECESSARY, OR UNECONOMICAL   CAR.  Currently, the law
          provides that only the amount paid the physician or provider
          for rendering the care in question may be recouped as a
          penal ty. This measure would address the PROs' concerns
          related to ensuring that they have a viable sanction measure
          short of exclusion available to them.

         THE DEPARTMENT SHOULD SUBMIT A LEGISLATIVE PROPOSAL TO AMEND
         THE PRO STATUTE TO PROVIDE THAT THE FAILUR OF PHYSICIANS OR
         PROVIDERS TO COMPLY WITH THEIR PATIENT CARE OBLIGATIONS
         UNDER SECTION 1156, IN ITSELF, CONSTITUTES A SUFFICIENT
         BASIS FOR SANCTIONING. THUS, THE SEPARTE REQUIREMENT THAT,
         IN ORDER TO BE SANCTIONED, PHYSICIANS OR PROVIDERS MUST
         DEMONSTRATE AN "UNWILLINGNESS OR LACK OF ABILITY" TO COMPLY
         SUBSTANTIALLY WITH THEIR OBLIGATIONS TO MEDICAR
         BENEFICIARIES SHOULD BE DELETED. This change would
         eliminate the confusion over what constitutes " unwilling or
         unable. "
         THE OFFICE OF INSPECTOR GENERAL WILL PROPOSE A REGULATORY
         CHAGE TO CLAIFY THE PROFESSIONALLY-RECOGNIZED STANDARDS OF
         HEALTH CARE TO WHICH PHYSICIANS AND PROVIDERS AR EXPECTED
         TO CONFORM. Such a change would help eliminate the
         confusion of some PROs and administrative law judges
         concerning what constitutes health care that meets
         professionally- recognized standards which physicians and
         providers are obligated to uphold.




                                   iii
. .




      The HCFA€

           THE HCFA SHOULD EXPLORE AND DOCUMENT THE REASONS FOR THE€
           CONSIDERABLE VARIATION IN SANCTION ACTIVITY AMONG THE PROS.€
           Such efforts should clarify what, if any, impact such varia-€
           tions have on the PROs I protection of Medicare benefi-€
           ciaries. As part of that effort, HCFA should carefully€
           examine the impact of enacting Section 4095 of the 1987€
           Omnibus Budget Reconciliation Act (OBRA) that requires pre-€
           exclusion hearings for physicians or providers "located in a€
         . rural health manpower shortage area (HMSA) or in a county€
           with a population of less than 70, 000.   Our study suggests€
           that enactment of this OBRA 1987 provision may further€
           inhibi t the PROs from making sanction referrals to the OIG€
           due to the added complexity and delay it brings to the€
           sanction process.€

          THE HCFA SHOULD EXPLORE AND DOCUMENT THE REASONS FOR THE€
          APPARENT HIGHER RATE OF SANCTION RECOMMENDATIONS PERTAINING€
          TO PHYSICIANS PRACTICING IN RURAL VERSUS URBAN SETTINGS. €
          PART OF THIS EFFORT, HCFA SHOULD STUDY PRO REVIEW PROCEDURES€
          TO ENSURE THAT SANCTIONABLE ACTIVITIES BY URBAN PHYSICIANS€
          ARE BEING IDENTIFIED WH APPROPRIATE. These actions by€
          HCFA will help clarify whether physicians practicing in€
          rural areas have greater problems effectively addressing €
          quality problems through corrective actions or whether the€
          system for identifying such physicians is somehow biased€
          against them.€
                           INTRODUCTION

The Office of Inspector General (OIG) has recently completed an
inspection of the Utilization and Quality Control Peer Review
Organization (PRO) program. The primary purpose of this broad-
based study was to assess PRO performance and to promote a better
understanding of the PROs' mission and activities. To that end
the study focused on the following factors:
          the implications of the changes in the PROs I scope of
          work from the first to second contract period;

          the major differences in perception among the PROs and
          other entities (e. g. , health providers, consumers
          Government officials, public interest advocates)
          regarding the PROs' mission and performance;

          the significant variations that exist among PROs in
          carrying out their scope of work responsibilities;

          the PRO practices that appeared to be exemplary;     and
          the potential weaknesses or vulnerabilities of the
          program.
(See appendix II for a more detailed explanation of the back-
ground for this inspection.

In the course of this OIG inspection of PRO performance, we
conducted in-depth interviews with a wide range of individuals
associated with the PRO program , including all PRO chief execu-
ti ve officers (CEOs), and a sample of other PRO staff , as well as
national and local external entities. We visited 12 of the 44
PROs who are conducting reviews in 16 of the 54 PRO jurisdic-
tions: California , Colorado, Florida, Georgia, Indiana, Iowa
Massachusetts , New York, Oregon, Rhode Island , Texas , and West
Virginia (for the Delaware PRO area). We created a computer file
to store and sort information gathered from our interviews.
addition to this primary data, we collected and analyzed PRO-
related performance data from HCFA and other entities. (See
appendix III for a more detailed description of our methodology.

Because the PROs' sanction activities are central to the protec-
tion of Medicare beneficiaries , this inspection included a review
of those activities within the context of the PROs' overall
quality assurance efforts. This report focuses on the processes
followed by the PROs and the OIG to sanction physicians or
providers who fail to meet their patient care obligations under
section 1156 of the Social Security Act.

This report is the second in a series of three reports of our
inspection findings. The first report focused on the PROs
---.   '--




             quality review activities . That report noted that such quality

             review activities are central to the PROs I mission but have some

             operational problems that limit their effectiveness. To address
             some of those problems, we recommended that HCFA refine the
             generic quality screens and encourage the PROs to expand their

             outreach efforts to Medicare beneficiaries and to have closer

             coordination with other health care entities, particularly State

             medical licensure boards.


             A subsequent report of this PRO inspection will focus on an

             overview of PRO performance, including a discussion of PRO

             effectiveness and of HCFA' s oversight of the program.



                               BACKGROUND OF THE PRO PROGRA
             Creation of the PRO Proqram


             The Utilization and Quality Control Peer Review Organization
             (PRO) program was created by the Peer Review Improvement Act of
             1982 , TitIe I, Subtitle C of the Tax Equity and Fiscal Respon­
             sibility Act of 1982, Public Law 97-248.

             Peer Review Organizations (PROs) succeeded Professional Standards

             Review Organizations (PSROs) in the provision of Medicare peer

             review. The PSRO program had been established by Congress (in

             Part B of Title XI of the Social Security Act) in 1972 to ensure

             that health care services provided under the Medicare , the

             Medicaid, and the Maternal and Child Health and Crippled

             Children I s programs were " medically necessary, conformed to
             appropriate professional standards , and were delivered in the
             most efficient and economical manner possible. ,,2 The PSRO

             program was a response to increasing Medicare and Medicaid costs

             and the failure of existing utilization and claims review

             mechanisms to deal with widespread inappropriate usage of health

             care services.
             The congressional rationale for replacing the PSRO program with
             the PRO concept was based on the fact that the PSRO program had
             "been faced with certain structural problems: overregulation and
             too detailed specification in laws (had) restricted innovation in
             new approaches to review. ,,3

             The PRO legislation emphasized greater accountability by requir­

             ing PROs to have performance-based contracts with specific

             measurable objectives. The PRO legislation shortly preceded the

             Prospective Payment System (PPS) legislation and the PROs were

             expected to address concerns about the potential negative

             incentives of the PPS for increases in hospitalizations and

             reductions in the quality of care provided to Medicare

             beneficiaries.  Compared with former cost-reimbursement systems
             PPS gave hospitals much stronger incentives to increase Medicare
payments by increasing their numer of admissions and to reduce
costs by limiting services or discharging patients earlier.
Hence , the PROs were charged with monitoring the system to
protect against potential provider abuses such as unnecessary
admissions, substandard care, and premature discharge.

The Secretary of the Department of Health and Human Services
(HHS) was mandated legislatively to enter into PRO contracts with
 physician sponsored" or " physician-access" organizations. A
physician- sponsored organization is composed of a substantial
number of physicians in the review area and is representative of
those physicians. A physician-access organization has an
adequate number of available physicians practicing medicine or
surgery in the review area.

First Scope of Work (1984-19861
The , PRO program was implemented in 54 States and territories
through 2- year, fixed- price contracts with " peer
                                                  review
organizations.   Each of the 50 States, the District of Columbia,
Puerto Rico, and the Virgin Islands was designated as a separate
PRO area. Guam, American Samoa , the Northern Mariana Islands, and
the Trust Territory of the Pacific Islands were designated a
single PRO area.

The first contracts , which became effective over a 5-
                                                       month period
from July to November 1984 , emphasized detection of inappropriate
utilization and payments under the new PPS system. To that end,
contract goals included reducing unnecessary admissions
that payment rates matched the diagnostic and procedural, ensuring
information contained in patient records , and reviewing patients
transferred or readmitted wi thin 7 days of discharge to determine
whether readmission was for the same condition as the first
hospital visit. In addition, each PRO contract included at least
five objectives: reducing unnecessary readmissions because of
substandard care during the prior admission, ensuring the
provision of medical services critical to avoidance of
unnecessary patient complications , reducing unnecessary surgery
or other invasive procedures, reducing the risk of mortality, and
reducing avoidable postoperative or other complications.
                                                            The
PROs were also expected to develop and analyze Medicare patient
data to identify instances and patterns of poor quality.
When the PROs identified problems with given physicians or
hospitals , they were expected to address those problems through
education and consultation, intensified review, or denial of
payment for care that was not reasonable or was provided in an
inappropriate setting. The PROs were also authorized to recom-
mend the sanction of physicians or providers in cases of a
 substantial violation" in a " substantial numer of cases" or a
 gross and flagrant" violation even in a single case. Such cases
were referred to the Inspector General' s Office for review and
sanction determination; (A further discussion of the sanction

process appears later in this background.


Second Scope of Work (1986-1988\€
During the first contract period, several entities, including the

General Accounting Office (GAO), the Inspector General of the

Department of Health and Human Services, and the Rand

Corporation, studied the PROs' performance and recommended that

their quality review be strengthened. (See appendix IV for a

summary of PRO-related studies.   In response to these findings

and general pressure from within and outside of the Department,

HCFA strengthened the quality review requirements in the second
PRO contracts which began in July 1986. In those new contracts,
the 44 PROs that were responsible for review in the 54 PRO areas

(see appendix V for a summary of PROs with more than one

contract) had the following requirements:


          review of readmissions to the same hospital

          15 days;

                                                         ithin€
          review of a sample of discharges to assess whether

          there was evidence of premature discharge or transfer;

          review of hospitals with unexplained statistica

          outliers in the PRO data on high mortality rates or

          utilization patterns;


          application of a standard set of quality-related

          criteria (called generic quality screens) to all cases

          selected for PRO review. These six generic quality

          screens included: adequacy of discharge planning,

          medical stability of patient at discharge, deaths

          nosocomial infection, unscheduled return to surgery,

          and trauma suffered in the hospital;


          special review of short hospital stays; and


          development and implementation of community

          outreach programs.

Thus , the second scope of work intensified the PROs' review

requirements. In addition to generic    quality screens , all

records selected for retrospective review for any reason were

also subj ected to admission review , DRG validation , coverage

review, and discharge review.


The Senate Finance Committee staff in a background paper,

 Quality and Access to Health Care Under Medicare I s Prospective
Payment System " noted that "these changes in the PRO review
effort were designed to increase detection of premature dischar­

ges; to improve review of care in the hospital, particularly the

detection of situations where under-service may impact the
quality of patient cases; and to improve the patients' under-
standing regarding their rights and appeals under the system. ,,4

(See appendix VI for a sumary of   the differences between   the
first and second scopes of work.

COBRA and OBRA 1986 Provisions:

The PROs' responsibilities were substantially increased through
provisions of the Consolidated Omnibus Budget Reconciliation Act
of 1985 (P. L. . 99-272, commonly referred to as COBRA) and the
Omnibus Budget Reconciliation Act of 1986 (P. L. 99-509, commonly
referred to as OBRA 1986). The COBRA legislation required the
implementation of preadmission review for 10 surgical procedures
and preprocedure review of any cases involving assistants at
cataract surgery. It also     gave PROs the authority to deny
payment for quality of care concerns, with the expectation that
this authority would complement rather than conflict with the
PROs' sanction authority. The OBRA 1986 legislation extended the
PROs ' review from only inpatient hospital settings to ambulatory
and posthospital settings. Over the next several years , the PROs
will be expected to review care delivered in hospital outpatient
departments, ambulatory surgical centers, skilled nursing
facilities , home health settings, and doctors' offices.
addition , in certain states, PROs are performing qulity review
of health maintenance organizations (HMOs) and competi ve
medical plans (CMPs). (See appendix VIII for a sumaryti of
                                                              COBRA
and OBRA 1986 provisions.
Visibilitv and Vulnerabilitv of the PRO Proqram

As reflected in the legislative history, the scope of the PRO
program significantly expanded after its inception. That
expansion has been accompanied by extensive scrutiny from many
oversight entities within Government and from proviner and
consumer groups outside Government. To date, Congress has held
eight hearings related to the PRO program and numerous research
and oversight entities have conducted PRO- related evaluations.
(See appendix IV.
The complex identity and inherent vulnerability of the PROs were
summed up by one PRO spokesman:

    "It is clear from my vantage point that PROs are
    quickly becoming all things to all people... The
    Inspector General of the Department of Health and Human
    Services is searching vigorously for a pOlicema of the
    marketplace. The Executive Office of Managemen and
    BUdget is looking hard for cost containment services
    particularly to hold the line on Medicare admissions.
    The Medicare beneficiary community earnestly desires a
             protector of qual ty as the incentives of diagnosis
             related group (DRG) payment and capitated arrangements
             invi te under- service. Heal th care consumers seek ready
             access to the information that review activities can
             generate. How else will a competitive market place
             work? Local practicing physicians remain wedded to a
             responsibility to monitor and evaluate their own
             practice behavior. All this and more for one fifth of
             1 percent of the Medicare hospital trust fund (the PRO
             budget for a single year)... Can there be any doubt
             that PROs will surely fail on someone' s scorecard?,,5

 Administration and Oversiqht of the PRO Proqram
The Health Care Financing Administration (HCFA) is responsible
for administering and overseeing the PRO program through its
Office of Medical Review in the Health Standards and Quality
Bureau (HSQB). These functions are shared by central and
regional office staff. The former group is responsible for
establishing the operational and evaluation policies and
mechanisms for the program and for negotiating the PRO contracts.
The latter group is responsible for implementing program require-
ments and providing regular oversight and technical assistance to
the PROs in their respective regions.
since the inception of the PRO program, both HHS and HCFA
leadership have changed. In response to substantial concerns
raised about their predecessors I management of the program, the
Secretary of HHS and the Administrator of HCFA have met periodi-
cally since 1986 with physician, hospital, consumer, and PRO
representatives to hear their concerns about and suggestions for
improving the PRO program. In response to those meetings, a "PRO
action plan" has been developed to improve both HCFA' s management
of the program and the PROs I performance and effectiveness.
action plan has served as a resource for HCFA in its ongoing The
efforts to strengthen the PRO prog am.
The HCFA has faced numerous challenges in overseeing the PRO
program. Like the PROs , HCFA has responded to competing expecta-
tions from within and outside the Government. For instance, HCFA
has juggled pressures to make the PROs accountable for quantifi-
able outputs with those to give the PROs the proper flexibility
to carry out their mission in an efficient and effective manner.
In addition, HCFA has had to balance the expectation that
addi tional PRO provisions (such as COBRA and OBRA) would be
implemented quickly with the pressures to follow formal mechan-
isms. All the   while allowances had to be made for the limita-
tions of available quality review technology. The HCFA has also
had to juggle its mandates to carry out congressional intent for
the PRO program and to operate within the
                                            pportioned funding
levels prescribed by the Executive Office of Management and
Budget. A more detailed description of HCFA' s role in the PRO
program will be included in our next inspection report.
The PROs , Oualitv Review and Intervention Procedures

As part of their ongoing quality assurance efforts, the PROs draw
a sample of hospital records for a review of both quality and
utilization elements. Those records are reviewed on a case-by-
case basis , using six HCFA- generated generic quality screens and
discharge criteria, as well as PRO-specific screens. The PROs
employ nurse reviewers, or other health care professionals, to
perform the initial review of records. They refer any potential
quali ty cases to physician reviewers for final determination.
The PROs also identify potential quality problems though
 profiling, " in which they use their data system to identify
patterns of inappropriate care.
Once the PROs have determined that a quality proble exists,     they
are required to initiate corrective action which may include    the
following: intensified review , alternate timing of review
education , and sanctions.
Intensified review involves sampling a larger percentage of a
particular physician I s or provider' s records (often 100 percent)
in the subsequent quarter to verify whether or not the identified
problem has continued. Intensified review may also be used after
contact with the physician to ensure that the particular problem
has been corrected.
Although most PRO review is done on a retrospective basis , the
PRO may choose to alter the timing of that review to address
particular problems. For instance, if a particular physician has
a large number of unnecessary admissions, the PRO might initiate
preadmission review of the physician' s patients.
The PRO may also require that a doctor enroll in continuing
medical education. This could include the physician' staking
specialized courses or possibly retaining a physician consultant
to review his or her cases.
If the PRO determines that corrective action has failed to
address the quality problem adequately, the PRO is exected     to
recommend the physician or provider for sanction.

The Sanction Process

The Secretary of Health and Human Services is authorized to
impose sanctions on Medicare-reimbursed physicians or providers
if they have " grossly and flagrantly" violated or " substantially"
failed in a " substantial number of cases" to comply with their
statutory obligations to provide (1) services which are provided
 economically and only when, and to the extent they are medically
 necessary, "                    (2) services that are "
 professionally recognized standards of
                                     of ahealth
                                           quality which meets
                                                care, " and (3)
 services that are properly documented. The Secretary may impose
 one of two sanctions: (1) a monetary penalty for no more than
the " actual or estimated cost of the medically improper or
unnecessary services so provided" or (2) exclusion from the
Medicare program for a specified period of time. (For detailed
sanction provisions, see 42 U. C. Sec. 1320C-5.

The PRO must provide the practitioner or provider with

 reasonable notice and opportunity for discussion" before making

its recommendation to the Secretary. Under the regulations,

(42 CFR part 1004) the provider or practitioner is entitled to an

opportunity to submit additional information and/or meet with the

PRO to discuss an allegation of " gross and flagrant" viola­

tion(s). with an allegation of " substantial" violations, the
physician or provider is entitled to submit additional informa­
tion and to receive two notices of potential violation and two
opportunities to meet with the PRO. In either case, if the PRO
recommends the imposition of a sanction, the physician or

provider must be given 30 days' notice and an additional

opportunity to submit written comments to the Secretary.

The Secretary has delegated the authority for sanction determina­

tions to the Office of Inspector General (OIG). Upon receipt of

the PRO' s sanction recommendation, the Inspector General must

determine whether he agrees with the recommendation and whether

the physician or provider has "demonstrated an unwillingness or
lack of ability substantially to comply with statutory obliga­
tions. " The Inspector General may accept , rej ect, or modify the
sanction recommendation forwarded by a PRO. In cases where the
PRO has recommended exclusion, the OIG must act on that recommen­
dation within 120 days or the exclusion automatically goes into

effect pending final determination by the OIG.


Within the Office of Inspector General, the Office of Investiga­

tions is responsible for processing and reviewing each PRO

sanction referral. I f the OIG accepts the PRO' s recommendation,

the sanction goes into effect 15 days upon the relevant physi­

cian' s or provider' s receipt of the OIG sanction notification.
The physician or provider may appeal the sanction to an ad­
ministrative law judge (ALJ), who will conduct a      novo hearing
to review the facts of the case. If dissatisfieddewith   that
appeal, the sanctioned party may then appeal to the Secretary I s
Appeals Council and may thereafter seek judicial review 

                                                            n court.
(See appendix VII for a detailed description of the process for
addressing a case of " gross and flagrant violation" versus a case
of " substantial number of substantial violations.
The peer review statute and implementing regulations related to
the sanction process have attempted to balance , the competing
priorities to protect both the rights of Medicare beneficiaries
to receive high- quality care and the rights of physirians and

providers to receive adequate due process. That delicate balance,

has meant that although a physician or provider has had an
opportunity to have at least two administrative entities (the PRO
and the OIG) review a case prior to the imposition of a sanction,
the process has deferred a full evidentiary hearing 

                                                       til after

the sanction has been imposed. 


The PROs' sanction procedures have precipitated ongoing debate
among all parties associated with the PRO program. Organized
medicine has argued vociferously that the PROs should provide
physicians and providers with stronger due process protection.
In response to such concerns , HCFA and the OIG held discussions

last spring with the American Association of Retired Persons

(AAP) and the American Medical Association (AM) ana developed
certain sanction procedures that were incorporated i o HCFA' s
PRO Manual. (See appendix X for a copy of the revised PRO

sanction procedures.    The new PRO sanction instructions

strengthened PRO notice procedures, clarified the role of an

attorney for the physician or provider at the PRO discussions

ensured that physicians or providers would be provided records of

the PRO proceedings , and permitted expert witnesses to provide

relevant medical evidence at the PRO discussions with the

physician or provider.
Over the last year, both organized medicine and Medicare benefi­
ciaries from some affected communities have also   argud that the
sanction process has adversely affected rural communi ies since

sanctioned physicians and providers have been excluded from the

Medicare program pending their ALJ hearings. Such ccncerns led

to a recent legislatively mandated requirement (SectiDn 4095 of
the Omnibus Budget Reconciliation Act of 1987 , P. L. 1100-203
commonly referred to as OBRA 1987) for ALJ review prier to the

imposition of an exclusion for any physician or provider who is
practicing in a " rural health manpower shortage area" (HMSA) or
in a county with a population of 70, 000 or less, unless it is
determineCi that the physician or provider poses a " se:ious risk"
to Medicare beneficiaries. In addition, Congress has directed
the Secretary of HHS to conduct a year-end study of hew the PROs'
new standardized due process procedures have impacted the PRO

program.
Like other aspects of the PRO program , the sanction   ocess has

been dynamic--changing as the PROs, the HCFA , and the OIG have

gained more experience and as particular groups have highlighted

its ambiguities and vulnerabilities. In addition to the afore-

mentioned changes , the OIG has recently proposed changs in the
use of monetary penal ties. The    current statutory fornla for
assessing monetary penal ties is outdated given that  th PROs I
sanction provisions were enacted prior to the advent of the
prospective payment system (PPS). For example, under PPS, it is
almost impossible to determine what Medicare Part A casts are for
improper or unnecessary care. Hence, the monetary penal   ties
imposed have generally been based on only Medicare Part B costs
and have resulted in amounts as low as $65. 44. In  response to
that problem , the OIG issued a technical memorandum to all the
PROs in July 1987 highlighting the lack of cost- effectiveness of€
monetary penalties and suggesting new guidelines for forwarding

such recommendations to the OIG. In addition, the OIG submitted

a legislative proposal to the Department in the Fiscal Year 1989

legislative process to modify the current monetary penalty

provisions so that a penalty of up to $10, 000 would be set for

each instance in which medically improper or unnecessary health

care services were provided.


As of December 31, 1987 , the OIG had received 151 referrals from

38 of the 54 PRO areas. The status of those cases is as follows:

               exclusions (60 physicians and 1 facility)

               monetary penalties (24 physicians and 2

               facilities)
               physician retired
               physicians expired
               rej ections by the OIG
               cases still pending

A more thorough discussion of sanction issues and statistics

follows in the "Findings " section of this report.



                             FINDINGS
Sanction referral authori tv strenqthens the PROs' abili tv   to

carrv out their overall mission


The vast majority (87 percent) of the 154 respondents who were
asked to comment on the PROs ' sanction authority thought that it
strengthened the PROs' ability to carry out their mission. (See
figure I. ) As one national external entity representative noted
"It is a club that gets people' s attention. Most individuals are
good candidates for educational peer review, but you have to have

a powerful weapon for the outliers.

                                    FIGURET€
 PERCEPTIONS OF THE EFFECT OF PROS' SANCTION
AUTHORITY ON PROS' ABILITY TO PERFORM MISSION



           STRE      ENS= 87%



                                                  WEAKENS= 2%

                                                 HAS NO EFFECT= 7%

                                               DO NOT KNOW= 3%




 ote: N =, 54 respondents.
Source; GIG Inspection Interviews




It is worth noting that during our extensive interviews , none of
the PRO CEOs flaunted their sanction statistics. In fact, most
of them view sanctions as a step of last resort when other
measures have failed. In addition, many of them mentioned that
sanction authority gives the program teeth and that its sentinel
effect " gets people' s attention " thereby facilitating the PROs'
efforts to correct substandard medical practices without actually
hav ing to recommend sanctions.

Approximately two-thirds of the PRO CEOs , and a corresponding
percentage of other groups interviewed , thought that the revised
PRO sanction procedures that grew out of discussions held by HCFA
and the OIG with the AM and AAP would strengthen the sanction
process by improving cooperation between the PROs and the medical
community. However , many PRO staff also mentioned that the new
procedures are cumbersome and simply formalize their preexisting
practices.
There is considerable variation amonq PROs in the number.€
qualitv. and tvpe of sanction recommendations referred€
Through December 31, 1987 , 35 of the 44 PROs had referred 151€
sanction cases to the OIG from 38 of the 54 PRO areas. The OIG€
has accepted 87 of those recommendations, rejected 53 of them,€
and closed 3 cases because of physician death or retirement;
eight cases are still pending. Our analysis of the distribution€
of sanction cases across PRO areas reflects that most sanction€
activity has come from a relatively small number of areas.
fact , 30 percent of the 54 PRO areas have made no sanction
referrals to the OIG , and 44 percent of them have had no sanc-
tions imposed by the OIG. (See figure II. For detailed analyses
of sanction activity for each PRO area, see appendix XI.
worth noting that we attempted to use HCFA I S data report on
                                                                   ) It
sanctions for our analysis. However , that report only included€
sanction activity within the PROs' second contract period and€
reflected inconsistencies with data obtained from the OIG' €
Office of Investigations. Therefore , in order to be consistent€
in our various analyses related to sanctions , we relied on data€
obtained from OIGjOI.€
                             FIGURE II

             SANCTION REFERRALS FROM 54 PRO AREAS TO€
              OFFICE OF INSPECTOR GENERAL, 1985-1987€
   NUM8ER OF SANCTION REFERRA€
        E: THAN 9 €




                  6_2
                  :=-5
                                            NUMBER OF PRO AREAS€

   Source: OIG/ Office of Investigations.

The maj or reasons cited by the respondents for the PROs           ' dif-
ferences in sanction activity included (in descending
order of frequency) the PROs' variations in (1) their interpreta-
tion of when it is appropriate to sanction rather than to provide
other corrective action , (2) their relative competence as
organizations , (3) their relative commitment to and comfort with
having sanctions as a part of their responsibilities, and
(4) their reticence versus their aggressiveness as organizations.
Our analysis of the interview responses, the quality review
procedures and the sanction activity levels of our 12 case study
sites suggests that the following factors may have contributed to
stronger sanction records:

          an organizational philosophy of " patient advocacy"
          a relatively straightforward and minimally layered
          quality review process;
          an organizational consensus about sanction-related
          definitions ;
          a degree of relative independence from the local
          medical society; and
          a relatively large geographic area.
However , a more in-depth review of the factors affecting the
PROs I variation in sanction activity is needed before any
definitive conclusions can be drawn.
The PROs I sanction referral authori tv is the most controversial
aspect of their responsibilities
Given that approximately half a million physicians are involved
in the Medicare program and that we are living in a time of
increased quality assurance accountability, the level of sanction
activity associated with the PRO program seems modest. In fact
several PRO areas with relatively large numers of physicians
show no sanction activity. (See appendix XI, table B.    Further-
more, according to recent congressional testimony, eight of the
areas with no Medicare physician sanctions also have shown the
lowest level of disci linary actions taken by their respective
State medical boards.

Al though the number of sanctions have been relatively low , they
have engendered heated controversy, widespread publ ici ty. and
extensive congressional attention. Numerous newspapers (includ-
ing The New York Times ) 9 have written front- page stories about
PRO sanctions and several government , PRO , provider and consumer
spokespersons have provided impassioned congressional testimony
about the sanction process.
The sanction process is controversial because it embodies the
inherent conflicts associated with the PROs' mandates to be "   all
things to all people. "lO More specifically, the process pits the
economic livelihood and due process rights of physicians and
providers against the quality of care rights of Medicare
beneficiaries and forces the PROs to simultaneously balance their
educating and enforcing roles.
Several PRO CEOs voiced frustration about the disproportionate
share of public attention that their sanction activities receive
compared with their myriad other quality intervention efforts.
Our discussions with various national and local external entities
reinforced that little information about the PROs' quality
intervention efforts reaches the pUblic s attention. To address
this concern , our recent report on the PROs' quality review
activities recommended that HCFA "develop and widely disseminate
information on the full range of educational corrective actions
being taken by the PROs to address qual i ty of care problems. " 11

The current sanction process appears to have serious flaws that
undermine its effectiveness.

Sixty- eightpercent of the PRO CEOs and a similar level of                  other
respondents thought that the current sanction process has
problems.  (See figure III.


                                       FIGURE III€
           PERCEPTIO S OF SANCTION PROCESS€

                                                       f' PRO   CHIEF EXECUTIVE
                                                       IL OFFICERS (CEOS)
    PROB ::MS ::XIST                                       CASE STUDY PRO STAFF
                                                           AI-ID BOARD MEMBERS
                                                       00 HCFA REGIONAl AND
                                                           CENTRAl OFFICE STAFF

1':0 PROBLEMS exiST                                    17 NATIONAL EXTERNAL
                                                           ENTITIES

                                                       f0 LOCAL EXTERNAL
                                                           ENTITIES
                                                           TOTAl FOR ALL
      DO NOT KNOW
                                                           RESPONDENTS



                                                     100
                    PERCENTAGE OF CATEGORY RESPONDING

Note: N= 196 respondents.
Soure e: OIG Inspee tion Interviews,
A majority (59 percent) of the PRO CEOs noted difficulty in€
determining  hen it is appropriate to sanction a given physician€
or provider. Other major issues cited by the PROs (in descending€
order of frequency) were as follows:

              the difficulty in interpreting the statutory and
              regulatory definitions of " gross and flagrant, " and
               substantial number of substantial violations"
              the difficulty in understanding what support documenta-
              tion is necessary to establish that a physician or
              provider is " unwilling or unable" to change;
              the confusion over the appropriate method of handling
              one case of " gross and flagrant violation"

              the lack of clarity, consistency, and coordination of
              sanction guidelines and interpretations given to the
              PROs by HCFA and the OIG;
              the lack of clarity about the appropriate conditions
              for recommending a monetary penalty, given the OIG I S
              recent determination that monetary penalties are often
              not cost-effective. The PROs, HCFA, and national
              external entities all voiced a strong desire for an
              intermediate measure short of exclusion to be incor-
              porated into the sanction process. However , no
              consensus existed' about the appropriate guidelines for
              impos ing such a penalty (i. e., whether it is ap-
              propriate to is!Sue a monetary "traffic ticket" for
              quali ty issues or just for fraudulent practices)
              the frustration related to the OIG overturning a
              significant (37) percent of their sanction
              recommendations;
              the frustrations related to the " cumbersomeness" of the
              due process procedures , including the PROs I perceived
              lack of preparation for and adequate representation at
              administrative law judge (ALJ) hearings , and the
              extensive time lag (average of 15 months) between the
              PROs' initial sanction referrals to the OIG and the
              ALJs' appeal determinations;
              the lack of timely and adequate payment to the PROs for
              sanction-related work;

              the confusion and conflict inherent in their concurrent
              education and sanction enforcement roles;
                         ..    .. .    ..       .', .€.
                                                ..    ,€            . -


                       the confusion over their ability to share sanction and
                       quality intervention information with other review
                       entities (i.e., state medical boards , hospital quality
                       assurance committees , etc. ) given the confidentiality
                       requirements of the Social Security Act , and
                       the limited medical review provided by the OIG in its
                       evaluation of PRO sanction referrals.

The aforementioned issues were also raised by the other groups
interviewed, although the frequency with which these issues were
mentioned varied among the groups. The HCFA respondents focused
most on the def ini tional concerns , the lack of coordination
between HCFA and the OIG, and the cumbersomeness of the due
process sanction procedures. The national and local external
enti ties focused most on concerns about the PROs ' confidentiality
restrictions and on definitional concerns. They   were the only
groups who voiced considerable concern about what they perceived
  ' be a lack of adequate due process in the sanction process.
In part, to address the PROs I confusion about their conf iden­
tiality requirements, our recent report on the PROs ' quality
review activities recommended that HCFA clarify those restric-
tions and require the PROs to report instances of " physician
misconduct or incompetence to State medical licensure boards. ,,12
The myriad limitations of the current sanction process may have
influenced its use. Over the last year, the PROs ' overall
sanction referrals have decreased due , in large part, to the
prev iously more active PROs submitting fewer sanction referrals.
(See figure IV.   For a detailed breakout of sanction activity for
1985 , 1986, and 1987 , by PRO area , see appendix XI , table C.

                                              FIGURE IV€
                              SANCTION REFERRALS TO OIG , REJECTIONS AND€
                              ACCEPTANCES BY OIG IN 1985 ,   1986 AND 1987

                                                                              NUMBER OF" SANCTIONS
                                                                                REFERRED TO DIG

                                                                              NUMBER OF SANCTIONS
                                                                                 ACCEPTED BY DIG
                                                      0..                            ----D'--
                                                                              NUMBER OF' SANCTIONS
                                                                                REJECTED BY DIG
                                                                                       -8--




                1985 1986
Source: OIGI Office of Investigations
Nole: ('ghl cases referred in '987 ort! still
                                                     YEAR
                                                                          1987




      pendmg decision in the OlG
 The reduction in PRO referrals may mean that the PROs are
 successfully addressing all quality problems through the educa-
 tional process.  However, it may also reflect that because of the
 enormous financial and political costs PROs must endure to
 sanction a physician that they have simply concluded that the
  juice just isn't worth the squeeze.

In addition to fewer PRO referrals , as reflected in figure IV
the OIG' s rej ection of PRO cases has increased substantially over
time. Our Office of Investigations' analysis of the 53 rejec-
tions as of December 31, 1987 reflects the following reasons for
such action:
               cases rej ected because the PRO had failed to
               provide adequate information related to
               physicians' or providers' " unwillingness "   or
               "inability" to meet their obligations under
               Section l156 of the Social Security Act
               cases rejected because the PRO had failed to
               provide adequate medical evidence to support its
               recommendation, and

               cases rej ected becausethe PRO had failed to
               follow proper regulatory procedures for sanctions
               (as outlined in appendix VII)
If limitations of the sanction process have had a chilling effect
on sanction activity, two recent developments are likely to
exacerbate that effect. First, several ALJ decisions rendered
over the last year have either reversed or limited the sanctions
imposed by the OIG. However, in a number of these cases, the OIG
is appealing those decisions to the Departmental Appeals
                                                           Council.
Second , OBRA 1987 includes a provision requiring ALJ review  prior
to exclusion from Medicare for any physician or provider located
in a rural health manpower shortage area (HMSA) or in a county of.
less than 70 000 population. This provision dictates that such a
physician or provider cannot be excluded without an opportunity
to request a preliminary hearing to determine whether that
physician' s or provider' s continued participation would place
beneficiaries at risk. The preliminary hearing will be to
determine the basis of the risk to patients. If the OIG
prevails , the exclusion will be effectuated and remain in effect
during the course of the appeal. If the physician or provider
prevails , the exclusion will be stayed  until a decision is
rendered by the ALJ. Because an ALJ decision takes an average of
10 months from the time the case is forwarded to the ALJ by the
OIG , this policy change is likely to intensify the PROs
frustrations with the length of the sanction process and there-
fore may make them less inclined to make sanction referrals.
                                     ..._.,- ,~._                                ..-.




Most res ondents thou ht that the PROs'              rocess for ident i fv inq
 ualit           roblems is free from s
            of care                                 stemic bias aqainst rural
phvsicians and providers
Sixty-three percent of the 185 respondents saw no bias in the
PROs ' process for identifying quality of care problems.
greater percentage of the PRO CEOs and staff found the system to

be free from rural bias. They believe that any dispro­

portionately greater sanctioning of rural physicians results both

from the PROs ' application of one standard of care to all

physicians and providers and from the greater isolation of rural
physicians from informal and formal quality assurance mechanisms
(i. , exchange with fellow physicians and active hospital
quality assurance committees). (See figure v.
                    FIGURE V

  PERCEPTIONS OF BIAS AGAINST RURAL PHYSICIANS
  AND PROVIDERS IN PRO QUALITY REVIEW PROCESS



          U:'-3!L.SED REVIEW-- 63%                     DO NOT KNOW-- 13%




                                                    BIASED REVIEW-- 24%




I-Jot-e: N=185 respondents.
Source: DIG Inspection Interviews.


Those respondents (24 percent) who did think the system is biased
against rural physicians and providers generally attributed that
bias to the PROs I 3 percent sampling methodology. They suggested
that because the 3 percent sample is hospital--rather than
physician-- specific, a physician practicing in a small rural
hospital is more likely to be reviewed by the PRO than one

practicing in a large urban hospital because hospital discharges

are distributed among fewer physicians. However, HCFA has

reviewed the sampling methodology and has concluded that it is
free from bias.

Al though there havebeen too few sanctions to draw definitive
conclusions, our analysis of PRO-specific sanction data neverthe-
less suggests that rural physicians have been sanctioned at a
higher rate than urban ones. Using the 1980 census data, we
classified all sanctions according to whether the physicians
addresses fell within Standard Metropolitan Statistical Areas
(SMSAs). Those falling within an SMSA were classified as urban
and those falling outside were classified as rural. ' We also
compared the percentage of rural and urban sanctions to the
states I percentages of rural and   urban physicians. (See
appendix XI, table D.

The reasons for the greater sanctioning of rural physicians are
unclear. Al though HCFA' s instructions to the PROs for drawing a
3 percent random sample seem free from bias , perhaps there are
problems with the PROs' application of that methodology. On the
other hand perhaps the greater sanctioning of physicians results
from the fact that physicians in rural areas are more isolated
and therefore may find it more difficult to correct those
substandard medical practices identified by the PROs.

Sanctions are the final step in a long process which includes a
range of possible interventions by the PROs. Therefore, defini-
tive conclusions about the potential systemic bias of the PROs'
system for identifying quality of care problems cannot be drawn
without analysis of the distribution of rural and urban
physicians identified early in the process as having quality
problems compared with the distribution of rural and urban
physicians who have been subsequently sanctioned. Such informa-
tion is currently unavailable.


                         RECOMMNDATIONS
This study has generated important insights concerning the
factors that inhibit PROs from making more effective use of their
sanction referral activity. In view of these insights , we in the
Office of Inspector General have committed ourselves to two
important lines of action. One is to increase the level of
communication with the PROs to provide them guidance regarding
their statutory and regulatory sanction requirements. Such
increased communication, we expect, will provide the PROs greater
opportuni ty to address sanction-related concerns such as
definitional interpretations, compilation of necessary
documentation and preparation for administrative hearings.
The other line of action is to increase the medical input
involved in reviewing the PROs ' sanction referrals to the OIG.
We will do that by having a second level medical review in all
such cases. We have made arrangements with
 the Department of

Army and the Social Security Administration
 to provide the

addi tional   input.€
In addition , we have two sets of recommendations that , if carried

out , will help PROs make more effective use of their sanction

referral authority. One set is directed to the Department of

Heal th and Human Services in general and the other to HCFA in

particular.€
The Department


        The Department should submit a leqislative proposal to amend

        Section 1156 of the PRO statute to strenqthen the monetarv

        penal tv as   an effective al ternati ve   sanction. The law
        should be amended to allow for an imposition of a monetarv

        penal tv of UP to $10. 000 per violation for substandard.

        unnecessarv. or uneconomical care     Currently, the law

        provides that only the amount paid the physician or provider

        for rendering the care in question may be recouped as a

        penal ty. This measure would address the PROs' concerns

        related to ensuring that they have a viable sanction measure

        short of exclusion available to them.


        The Department should submit a leqislative proposal to amend

        the PRO statute to provide that the failure of physicians or

        providers to complv with their patient care obliqations

        under Section 1156. in itself. constitutes a sufficient

        basis for sanctioninq. Thus. the separate requirement that.
        in order to be sanctioned. physicians or providers must

        demonstrate an " unwillinqnessor lack of ability" to complv
        substantiallv with their obliaations to medicare

        beneficiaries should be deleted   This change would

        eliminate the confusion over what constitutes " unwilling or

        unable.€
        The OIG will issue a requlatorv chanqe to clarifY the

        professionallv-recoqnized standards of health care to which

        phvsicians and providers are expected to conform . Such 

        change would help eliminate the confusion of some PROs and

        administrative law judges concerning what constitutes health

        care that meets professionally-recognized standards which

        physicians and providers are obligated to uphold.


The HCFA


        The HCFA should explore and document the reasons for the

        considerable variation in sanction activitv amonq the PROs

        Such efforts should clarify what, if any, impact such

        variations have on the PROs ' protection of Medicare

        beneficiaries. As part of that effort, HCFA should

        carefully examine the impact of enacting section 4095 of the

beneTlc-ia:fies. ,
                As part of that en'ort;. HCFA should
carefully examine the impact of enacting Section 4095 of the
1987 Omnibus BUdget Reconciliation Act (OBRA) that requires
pre-exclusion hearings for physicians or providers "located
in a rural health manpower shortage area (HMSA) or in a
county with a population of less than 70, 000.   Our study
suggests that enactment of this OBRA 1987 provision may

further inhibit the PROs from making sanction referrals to

the OIG due to the added complexity and delay it brings to

the sanction process.

The HCFA should explore and document the reasons for the

apparent hiqher rate of sanction recommendations pertaininq

to physicians practicinq in rural versus urban settinqs. 

part of this effort. HCFA should studY PRO review procedures

to ensure that sanctionable activities by urban physicians

are beinq identified when appropriate     These actions by

HCFA will help clarify whether physicians practicing in

rural areas have greater problems effectively addressing

qual i ty problems through corrective actions or whether the
system for identifying such physicians is somehow biased
against them.

                                   APPENDIX I
                                    ENDNOTES

        The Utilization and Oualitv Control peer Review Orqaniza-
        tions  (PRO) Proqram: Oualitv Review Activities , (Control
        # OAI-01-88-00570), Office of Analysis and Inspections,
        Off ice of Inspector General, Department of Health and Human
        Services , February 1988.
        Federal Reqister , Vol.. 49, No. 39, February 27 , 1984,€
        p. 7202.€

        Tax Equity and Fiscal Responsibility Act of 1982, Commerce€
        Clearing House , Inc. p. 37D. Senate Report, 97-494 at 41.€

        "Examination of Quality of Care Under Medicare' s Prospective
        Payment System, "Hearing before the Committee on Finance
        United States Senate , June 3, 1984, p. 44.
       Andrew Webber, "A PRO Report Card, The Internist: Heal
       Policv in Practice , the American Society of Internal
       Medicine, July 1986, pp. 7-9.
       Material on the PROs' quality review process was taken from
       the Conqressional Research Service Report for Conqress: The
       Peer Review Orqanization Proqram , The Library of Congress,
       October 23 , 1987 , pp. 20-21.€

       Material for the description of the sanction process was
       taken from the transcript of Inspector General Richard
       Kusserow' s testimony at a hearing before the Subcommittee on
       Intergovernmental Relations and Human Resources, Committee€

                           2cr, 1987.
       on Government Operations, United States House of Representa-
       tives , October
       Transcript of testimony of Sidney M. Wolfe, M. D. , Director,€
       Public Citizens Health Research Group before the Subcommit-€
       tee on Heal th and the Environment , Committee on Energy and€
       Commerce, United States House of Representatives,€
       October 26, 1987 , p. 4.€

       Robert Reinhold, " Quality-care Reviews Hurting   Rural
       Doctors The New York Times , March 24, 1987.
10.    Q2.   cit .,   Andrew Webber, p. 7.
l1.	   Q2.   cit .,
                 Office of Inspector General, Control
       # OAI-Ol-88-00570 , p. 24.

l2.    Ibid. ,   p. 25.
                              APPENDIX II
                   BACKGROUND OF THE PRO INSPECTION
The Office of the Inspector General (OIG) is mandated by statute
to provide leadership and coordination within the Department of
Health and Human Services (HHS). The OIG is charged with
ensuring the economy, efficiency, and effectiveness of HHS
program operations.
Because of the PRO program' s vi tal role in protecting both the
quality of care of Medicare beneficiaries and the financial
integrity of the Medicare program , the OIG has taken a keen
interest in and had a close association with the PRO program
since its inception. Among other activities, the OIG has
conducted preaward audits of the PRO and SuperPRO contracts and
of sanction cost estimates for HCFA and has made sanction
determinations on cases referred by the PROs.

The impetus for this inspection of PRO performance grew out of
the Inspector General' s personal interest in gaining a broad
perspecti ve on the PROs' performance during the second scope of
work.
Al though several other entities had reviewed various elements of
the PRO program (see appendix IV), no one had undertaken a broad
evaluation of it. Hence, in the fall of 1986
                                               , the Inspector
General asked the Office of Analysis and Inspections   to conduct
an inspection of the PRO program in the spring/sumer of
                                                           1987.
In addition, the OIG' s Office of Investigations asked us to
incorporate a review of the sanction process into our overall
inspection. We designed the PRO inspection to integrate some
original PRO data collection and analysis with other existing
PRO-related data collected from primary and secondary sources.
Due to other OIG priori ties , completion of the PRO inspection
field work wa delayed until the fall of 1987.

We designed this PRO inspection to provide the Inspector General
and other departmental officials , policymakers, and the public
with a broad perspective on the PRO program and how it has
changed over time.
In addition to this inspection, the OIG has done and continues to
do other work related to the PRO program. The following is a
sumary of some key audits and inspections.
Past Work

            Review of Financial Operations of Peer Review Organiza-
            tions (Audit No. 14-62158), which concluded that most
            PROs made a sizable profit on their initial contracts
            and recommended administrative and fiscal procedures
          for   HCFA to incorporate into its management of the PRO
          program.
          Inspection of Inappropriate Discharges and Transfers
          March 1986, which concluded that many PROs had not
          effectively used the authorities or processes available
          to address poor quality of care associated with
          premature discharges and inappropriate transfer. The


          dard care. €
          report included recommendations regarding HCFA'
          reporting and evaluation systems and suggested that the
          PROs be given authority to deny payments for substan-


          Report on Evaluation of California Medicare Review,
          Inc.  (CMRI) Price Proposal for Development of 43
          Sanction Cases (Audit No. 09-61658), September 1986,
          which concluded that HCFA failed to include reimbur-
          sable sanction activities into its fixed- price con-
          tracts with the PROs. The report recommended    that
          HCFA: (1) provide guidance to all PROs on the
          reporting of and accounting for sanction costs; (2)
          require all PROs to establish adequate cost accounting
          systems for summarizing the costs of sanction
          acti vi ties; (3) ensure all PROs develop and implement
          bid estimating procedures that more reasonably reflect
          the estimated costs of performing sanction activity;
          (4) ensure that all PRO contracts contain the necessary
          cost-reimbursement provisions required by the Federal
          acquisition regulations (FAR) before initiating any
          reimbursement of . sanctions; and (5) require CMI to
         provide an accounting of funds advanced for sanction
         activities and return any excess funds to the Federal
         Government. A subsequent report (Audit No. 09-8661662)
         was issued in May 1987 on CMRI' s price proposals for
         its first 117 sanction cases. That report reinforced
         the recommendations of the first report and also recom-
         mended that HCFA issue modifications to the PROs'
         fixed- price contracts to make only the PROs'
         incremental sanction costs reimbursable.
Current Work

         The Region VII Office of Audit is conducting a national
         cost-benefit analysis of five types of PRO review
         including retrospective admission, DRG validation, day
         outlier, cost outlier , and preadmission. The audit is
         focusing on 14 PROs and is expected to be completed
         before the spring of 1988.

          The Office of Analysis and Inspections (OAI) is
          coordinating the national DRG Validation Study, an
          analysis of medical record data collected from 239 PPS
hospitals (for the period October 1, 1984 to March 31,
1985) for DRG validation and identification of quality
of care problems. The OAI central office staff are
coordinating the review but regional staff are respon­
sible for analysis of the PRO-related data on DRG
validation and quality. Those reports are expected to
be completed by the spring of 1988.
                                APPENDIX III€
                         METHODOLOGICAL NOTES€
Summarv of Interviews€
Because we wanted to examine how both the PROs and HCFA viewed€
themsel ves and were viewed by others ,
                                      we conducted in-depth
(approximately 2-hour) interviews with a variety of people
associated with the program. Those 211 individuals included the
following:
             PRO chief executive officers (i. e., all PRO CEOs as 8€
             of the 44 PROs manage 2 PRO areas and 1 PRO manages 3€
             areas;
             other PRO staff and board memb     rs (i.
                                                   e., the medical
             directors , program directors, review directors, board
             chairs, and consumer representatives from the 12 PROs€
             selected for case study site visits);€

             national external entity representatives (i. e., the
             American Association of Retired Persons, the American€
             Hospi tal Association, the American Medical Association,€
             the American Medical Peer Review Association, and the€
             Public Citizen Health Research Group as well as the€
             Department of Heal th and Human Services, Executive
             Office of Management and Budget , and congressional€
             committee staff);€

             local external entity representatives (i. e., State
             medical societies, medical licensure boards , hospital€
             associations, fiscal intermediaries, and the American€
             Association of Retired Persons chapters associated with€
             the 12 PROs selected for case study site visits) €

             Heal th Care Financing Administration (HCFA) central€
             office staff (i.e., from the Health Standards and
             Quality Review Bureau, the Office of Management and€
             Budget, and the Bureau of Program Operations); and€

             HCFA regional office staff (i. e., all 10 Associate€
             Regional Administrators for Health Standards and€
             Quality, all lO branch chiefs and a sample of the€
             proj ect officers in the Medical Review Branch)
Case Study Selection€
In an effort to gain a first-hand perspective on the PROs €
operations, we made 3- to 4-day site visits to at least one PRO€
from each of the 10 HCFA geographic regions. As part of that€
case study effort, we planned to compare those case study€
     assessments to HCFA I s PRO- specific evaluation documents (i. e. ,
     PROMPTS and SuperPRO) for the second scope of work. Hence, we
     eliminated those PROs with a November 1, 1987 contract start date
     (i.e., Group 5 PROs) from the case study selection pool since we
     would be unable to obtain their corresponding HCFA evaluation
     documents in time for review. We also eliminated the Pennsyl­
     vania PRO from the selection pool since its second contract
     period only began on July 1, 1987.

     We then drew a judgmental sample of the PROs based on the
     following criteria: size (as reflected by funding level),
     geographic location, and sanction activity level. We divided the
     PROs into four groups based on their Medicare contract awards
     ($2. 9 million or less , $3-5. 9 million, $6-8. 9 million, and $9
     million or more) and calculated the appropriate numer of PROs to
     select from each funding category. That selection of particular
     PROs focused on ensuring a group of PRO sites with a distribution
     of geographic areas (i. e. , at least one PRO from each of the 10
     HCFA regions) and of sanction activity levels and with at least
     some representation of PROs that had both Medicare and Medicaid
     contraG:ts.
     The final group of 12 organizations selected for site visits in
     the 10 HCFA regions were as follows:
HCFA Reqion          PRO Area          Orqanization
                   Massachusetts   Massachusetts Peer Review
                                   Organization Inc. ,
                                   Waltham, MA
                   Rhode Island    Heal th   Care Review, Inc.
                                    Providence, RI
                   New York        Empire State Medical, Scientific and€
                                   Educational Foundation , Inc.€
                                   Lake Success, NY€
                   Delaware        West Virginia Medical
                                   Insti tute, Inc.
                                   Charleston, WV€
                   Florida         Professional    Foundation for Health€
                                   Care, Inc.

                                   Tampa, FL
                   Georgia         Georgia Medical Care Foundation
                                   Atlanta, GA
HCFA- Re   ion   PRO Area           Orqanization
                 Indiana            PEERVIEW " Inc.
                                    Carmel, IN
                 Texas              Texas Medical Foundation

                                    Austin, TX

                 Iowa               Iowa Foundation for Medical Care

                                    West Des Moines, IA

                 Colorado           Colorado Foundation for

                                    Medical Care

                                    Denver, CO

                 California         California Medical Review , Inc.

                                    San Francisco, CA

                 Oregon             Oregon Medical Professional Review

                                    Organization
                                    Portland, OR

     In the case study selection process, we opted to choose PROs

     based on their individual contracts with HCFA, rather than

     combining multiple contracts held by one PRO for different PRO

     areas. We chose Delaware as a PRO site to visit, although the

     West Virginia PRO actually holds the contract for Delaware.

     Hence, we refer to the West Virginia PRO in listing the case

     study PROs but note parenthetically that discussions focused on

     the Delaware contract. On the other hand , our site visit to the

     Rhode Island PRO focused on its operation in that state, although

     the Rhode Island PRO also holds the PRO contract for Maine.

     Discussion Guides


     We designed seven separate but interrelated discussion guides to

     capture the perspectives of PRO executive directors national

     external entities , other PRO board and staff, local ,external
     enti ties and HCFA central and regional office staff.
                                                             The
     discussion guide questions were structured so that we could later

     compare responses within and across groups. All discussion

     guides grouped questions under three or four categories: PRO
     assessment, quality review and sanctions , HCFA oversight
     some cases  , descriptive material.                       , and in
                                         The discussion guides included
     about equal numers of closed and open-ended questions , but most
     of the closed questions had an open- ended probe following them.

     Interview Approach

    We conducted approximately half the 21l interviews by phone and
    the other half in person.  For methodological consistency, we
    chose to interview all 44 PRO chief executive officers (CEOs) by
telephone and held subsequent additional on-site interviews with
those CEOs associated with the 12 case study PRO sites.
addition to the 12 case study PRO sites, we conducted on-site
rather than telephone interviews with most of the national and
local external entities and with HCFA central office staff.

The primary PRO inspection team consisted of four individuals
from Region I who conducted 95 percent of the telephone inter-
views and 80 percent of the on-site ones. Four additional field
team members (two from Region I and two from OAI' s central
office) conducted the other interviews. At least two team
members participated in each of the 12 PRO case study site
visits.  Inspection interviews ranged up to 5 hours with an
average length of 2 hours. We informed all participants
interviewed for this study that the confidentiality of their
specific responses to questions would be maintained, unless
otherwise cleared by them.
As part of    our quality control plan, the project lea er assigned
one person    to be the project' s administrative coordinator. That
individual    developed and maintained a tracking system for all
discussion    guides, correspondence, supplementary materials , and a
master schedule of team interviews.
Codinq and Anal vsis
We designed three primary and six relational data files, using
dBASE III PLUS, to store and tabulate interview responses.
developed codes for all questions and one team member usually
coded all questions in a given file to maximize coding
consistency. In  addition, a different team member checked at
least a 20 percent random sample of the files to ensure accuracy.
As part of the PRO inspection team' s quality control plan, the
project leader assigned one team member to be the project' s data
coordinator. In  addition to having primary responsibility for
designing the PRO data base, that individual was also responsible
for developing and enforcing data-related quality control
procedures.
We used dBASE III PLUS to tabulate all interview data by respon-
dent group (i.   e.,
                  PRO CEOs, other PRO staff and board, HCFA,
national external      entities
                          , and local external entities).
Other PRO-Related Data

In addition to interview data, we collected and analyzed other
PRO- related data including HCFA I S monthly and quarterly data
summary reports for all PROs and HCFA I s PROMPTS and SuperPRO
reports for the 12 PRO case study sites. Because complete and
accurate sanction data was unavailable from HCFA, the team used
information provided by the OIG I s Office of Investigations as a
basis for its sanction data analysis. The team classified rural
and urban sanctions based on whether the particular physician'
address fell wi thin a Standard Metropolitan Statistical Area
(SMSA) as defined by the U. S. Bureau of Census. Information on
the numbers of rural and urban physicians for 1985 was provided

by the Public Health Service , Bureau of Health Professions.

Information on the number of physicians eligible for Medicare

reimbursement as of January 1, 1987 was obtained from HCFA,

Bureau of Program Operations.


We also collected and reviewed a wide array of other materials

concerning PROs, including newspaper and journal articles,

congressional hearings, and GAO, Library of Congress, OIG, and

other studies and audits.


Methodoloqical Considerations in Interpretinq PRO Interview Data

The reader should keep three caveats in mind when reviewing this
report. First,  because we wanted to give as co prehensive a view
of PROs as possible, we have integrated the case study data with
the universal data. The case study data is generally used to

amplify broader-based findings, and such data is always clearly

labeled. Although we used a judgmental rather than random

sampling methodology for choosing the case study sites, it is

worth noting that those sites are broadly representative of PROs

by size, geographic location, and sanction activity level.

A second caveat to keep in mind is that although we interviewed a
total of 2ll individuals, a given question may have been directed
to only a subset of that universe.  Therefore, in this report , we
have sought to clarify the numer of people responding to a given
question by noting the universe of respondents
relevant summary tables and figures. 

                                                (N=   ) in all

The third but perhaps most important consideration to highlight

is that much of the information gathered in this study came from

questions with both closed and open- ended parts (e.g., "Do you

have any recommendations to the Federal Government regarding

actions it might take that would help PROs be more effective in

addressing quality of care issues?" Explain.     Because we chose

not to distribute the discussion guides prior to the interviews,

the open-ended questions required the respondent to spontaneously
formulate his or her answers. Therefore, the percentages of
people noting any particular answer vary much more than if the

respondents had been presented with limited response options or

had reviewed the discussion guides prior to the interviews.

                            AP?ENDIX IV
                  SUMRY OF   PRO-RELATED STUDIES
Because the PRO program is vital to the Medicare program and

exists within a highly visible political arena
                                               , several entities

have evaluated the program. 

                               e following is a sumary of some
key studies related to the PROs:

     Past Studies

The Congressional Research S -vice (CRS):


          "The Peer Review .organization Program
          1987: The study presented a sumary of" October 2 3
                                                 the legislative
          history, program fe tures, and relevant issues of the
          PRO program. The CRS report was prepared at the
          request of the House Committee on Energy and Commerce,

          Subcommittee on Health and the Environment.
          a prior report prepared at the request of the It revised

                                                         Senate

          Committee on Finance.
The General Accounting Office (GAO):

          "Medicare: Improving    Quality of Care Assessment and
          Assurance " May, 1988: This study assessed current
          systems for measuring and monitoring Medicare quality

         of care and reviewed quality assessment research and

         evaluation within the DHHS, analyzed its relationship

         to ongoing quality assessment functions , and assessed

         the need for long  ter    changes. Among other
         suggestions , the GAC recommended evaluations of the
         methods PROs use to review medical records, the utility

         of current methods for establishing the PROs I quality

         of   care contract obj ecti ves , and the quality of care
         in Medicare prepaid health plans. The GAO also recom­
         mended that formal guidelines be developed to

         coordinate the reporting of possible quality problems

         by carriers and interediaries to PROs and HCFA; that

         studies be initiated to assess the strengths and

         weaknesses of the division of responsibilities among

         carriers, intermediaries and PROs for processing and

         screening Medicare claims data and performing medical

         reviews to identify quality of care problems and

         substandard providers and suppliers; that PROs

         intermediaries and cariers document and report

         incidents of inaccurate data elements related to

         quality of care; and, that data used to evaluate PRO

         medical records include the information necessary to

         generate national estimates of quality problems.

"Medicare: Improved Patient outcome Analyses Could
Enhance Quality Assessment " June , 1988: This study
explored how outcome data can be used to monitor
quality of care and included a review of how PROs ' use
available data in their profiling of providers.

   strategies for Assessing Medicare Health Care
Quali ty, " December 3 0, 1987: The study evaluated the
systems for assessing quality of care in the Medicare
program   (i.    carriers, intermediaries, and PROs) and
identified short- and long-term strategies for measur­
ing _ and monitoring quality of care. Among other
suggestions, the GAO recommended that HCFA: review the
PROs I methods for dealing with quality issues; evaluate

the spheres of responsibilities of the PROs , FIs, and

carriers to determine that their responsibilities are

appropriately divided; require the PROs, FIs , and

carriers to maintain data related to quality; require

that patient diagnoses be recorded on Medicare out-

patient Part B claims and develop HCFA data files of

that Part B information; and develop a mechanism to

allow SuperPRO to evaluate PRO cases that were selected

through both the PROs ' random sample and specific

samples of hospital records.


"Better Controls Needed for Peer Review Organizations'
Evaluations, " October 8, 1987: The study assessed
HCFA' s evaluation process for the 1986-1988 contract
awards and concluded that HCFA' s process was fraught

wi th inconsistent and inadequate documentation and

improper application of instructions. Although GAO

found no evidence of inappropriate contract decisions,

it recommended that HCFA develop sufficient internal

controls for PRO evaluation, provide better ongoing

moni toring to the PROs and collect and use adequate

cost and performance data to set each PRO' s contract

funding level.
"Reviews of Quality of Care at Participating
Hospitals,   September 15, 1986: The study was based
on a survey of california , Florida, and Georgia PROs
and focused on the monitoring of inappropriate dischar­
ges and profiling of hospital and physician quality of
care problems. The GAO recommended that HCFA require
PROs to include quality of care' review data available
from the 1984-1986 contract period in their profiling
of hospitals and physicians and that the PROs review
the appropriateness of the discharge destinations as
part of their discharge reviews to better ensure that
patients needing skilled nursing care are allowed to
remain in the hospital while awaiting placement.
The Prospective Payment Assessment Commission (ProPAC):

          "Report and Recommendations to the Secretary, U.
          Department of Health and Human Services, " April 1,
          1986:  ProPAC, which is an independent commission
          established by Congress to analyze and recommend
          changes in the prospective payment system, recommended

          in its second annual report that better information

          about PPS be provided to beneficiaries, hospitals, and
          physicians.  ProPAC also recommended that PRO review be
          extended to the overall episode of care, including
          skilled nursing facilities , home health care and

          outpatient surgery.

The Rand Corporation:
          Kathleen N. Lohr, "Peer Review Organization: Quality
          Assurance  in Medicare " July 1985: study focused
          the first scope of work for PROs ' review of quality
          during the first 2 years of PPS. Rand recommended that
          the quality objectives in the 1984-1986 PRO contracts
          be broadened to include the use of generic screens and

          that quality review be given greater weight in the PRO

          review activities. Rand also recommended that the

          PROs I quality review be extended beyond the hospital to

          include the Medicare beneficiary' s entire episode of

          care.
     Current and Future Studies bv the GAO


          The Financial Integrity Act Group at GAO is currently

          reviewing the internal controls for payments by

          Medicare intermediaries. As part of that study, the

          group is assessing the effectiveness of the SuperPRO as

          a control mechanism for PRO performance. A draft

          report was issued July 22, 1988.


          At the request of the House Ways and Means Committee,
          the PEMD is currently conducting a study to evaluate
          the PROs' effectiveness in handling of quality of care
          issues.  Preliminary descriptive findings are expected
          in late 1988.


          The Human Resources Division (HRD) is undertaking a
          review of two aspects of the PRO program: an analysis
          of the reasons for the lack of information exchange
          between the PROs and other quality review entities and
          an examination of the DHHS/OIG' s criteria for accepting
          and rejecting PRO recommendations for monetary
          penal ties.

See appendix II for a summary of the OIG' s past and current work

related to the PRO program.

                    . . . . . . . . . . .. . . . . . .


                                  APPENDIX V

                     THE PROS WITH MORE THAN ONE CONTRACT*


Orqanization Name/Location

                                                         Additional
                                                  PRO Areas Reviewed

Professional Review     Organization.                     Alaska
  for Washington                                          Idaho
Seattle ,   WA

West Virginia Medical Institute , Inc.
                   Delaware
Charleston, WV

Delmarva Foundation for Medical Care,
    Inc..           District of

Easton, MD
                                               Columia
Hawaii Medical Services Association.
                     Guam/American Samoa

Honol ul u, 


PEERVIEW , Inc..                                          Kentucky
Carmel, IN

Heal th Care Review,    Inc..
                                                          Maine
Providence , RI
Iowa Foundation for Medical Care. 
                       Nebraska
West Des Moines, IA

New Hampshire Foundation for Medical Care. 
              Vermont
Dover, NH

Montana-Wyoming Foundation for.                           Wyoming
  Medical Care
Helena, MT

*Note:' Eight    PROs hold two contracts; one PRO holds three       contracts.
                                       APPENDIX VI�
                  COMPARISON OF 1984 SCOPE OF WORK TO 1986 SCOPE OF WORK

          Review Area                      1984                  1986
Obj ect    ves�                  3 Admission Objectives   5 Objectives

                                 5 Quality Objectives     Based on PRO data

                                 All proposed and vali­   from first 90 days

                                 dated by PROs. Very.     of generic quality

                                 limi ted areas for       screen review.
                                 focusing objectives      HCFA-identified
                                                          outliers.
                                                          Broader objectives

Random Samples	                  5% Admission Sample      3% random sample

                                 DRG Sample ranging       (includes 1- and 2-

                                 from 3% to 100%          day stays)
                                 based on hospital
                                 discharge size
Preadmission Review              5 Procedures proposed
   Pacemakers plus 4

                                 by PRO
                  procedures pro-
                                                          posed by PRO

Pacemakers                       100% retrospective
      100% preadmission

                                                          (see above)

Transfers                        From PPS to another
     Same but lower

                                 hospital, exempt
        level of review

                                 uni t , swing bed

Readmissions                     All readmissions
        All readmissions

                                 within 7 days
           within 15 days

Medicare Code
                   100% of 9 diagnoses
     Same
Edi tor

Focused                          468                      468, 462, 088

DRGs                             (462 added during
                                 contract period)

Outliers                         100% (reduced to 50%
    50%
                                 during contract
                                 period)
Percutaneous                     Not in contracts
        Review all cla

Li thotripsy                                              for percutaneous

                                                          lithotripsy in
                                                          hospitals which
                                                          have an extra-
                                                          corporeal shock wave
                                                          li thotripter
      Review Area                    1984                  1986
Validation of             Not   in   contracts      Sample of one
Obj ecti ves
                                                    quarter' s dis­
                                                    charges to validate
                                                    obj ecti ve performan
Hospi tal    Notices�     100% where patient        Same
                          or physician dis­
                          agrees.  100% where
                          patient is liable.
                          10% of remaining

Special ty     Hospital   Proposed by each PRO      15% of discharges

Review
Admission Pattern         Discontinued during       Not    n Scope of Work
Moni toring               contract
Intensified Review        Trigger:                  Trigger:
                            5% or 3 cases
          5% or 6 cases

                          (whichever is greater)
   (whichever is

                          of cases reviewed
        greater) of cases

                          Review increased to:
     reviewed. Review

                          100% or subsets
          increaed to: 50% or
                                                    subsets (first quarter)
                                                    100% or subsets (two

                                                    more consecutive
                                                    quarters)
Communi ty   outreach     Not in contracts          All PROs to propose

                                                    program
                                                    *All cases rev ewed
                                                    are subject to generic
                                                    quality screens,

                                                    discharge review,
                                                    admission review , DRG

                                                    review.
                                                    validation ,and coverage


Source:     HCFA
                                         APPENDIX VII

                SANCTION PROCEDURES FOR CASES OF GROSS AND FLAGRANT
                  AND SUBSTANTIAL NUBER OF SUBSTANTIAL VIOLATIONS
The following chart summarizes the steps that a PRO and the

Department of Health and Human Services must follow in reviewing

the health care services rendered to Medicare beneficiaries by

individuals or entities and in determining whether statutory

violations have occurred. Because of the extreme seriousness of

 gross and flagrant violations, " the two-tier review process
treats those cases more expeditiously than cases of " substantial
number of substantial violations.


SUBSTANTIAL VIOLATIONS IN A
                        GROSS AND FLAGRAT VIOLATION

SUBSTANTIAL NUBER OF CASES

                                                    Definition - A violation of an
Definition - A pattern of care                      obligation has occurred in one
has been provided that is                           or more instances which presents

inappropriate, unnecessary, or
                     an imminent danger to the

does not meet recognized profes­
                   health, safety or well-being of

sional standards of care,
                          Medicare beneficiary or places

or is not supported by the
                         the beneficiary in high risk

necessary documentation of care,
                   situations.�
as required by the PRO.

42 C.  R. Section 1004. 1(b).
                                                    42 C.   R. Section 1004.   l(b).�
                                                    wri tten notice of   a potential
Step 1 - Written notice of a
                       violation by the PRO. Subj      ect
potential violation by the PRO.
                    has 30 days to ask for a meeting
Subject has 20 days to request a
                   and/or submit additional
meeting and/or submit additional
                   material to explain, clarify,
material to explain, clarify, or
                   or resolve the potential

resol ve the potential violations.                  violations.
42 C.           R. section 1004.   40.              42 C.   R. Section 1004. 50.
                                                    PRO review of additional
Step 2 -             PRO review of additional       material submitted and/or the
material             submitted and/or the           meeting. On the      basis of
meeting.                                            additional information

                                                    received, the PRO may affirm,

                                                    modify, or reverse its

                                                    determination.
                                                    42 C.   R. Section 1004. 50(c).

Step 3 - If the PRO determines
                     PRO proceeds to Step 6.

that a violation has occurred, 


attempts to develop a corrective

action plan , which is agreed to

by the provider or practitioner,

to resolve the case.

Step 4 - In those cases un­
resol ved at Step 3 , the PRO is
to provide written notice to a

provider or practitioner that

possible violations have been

identified.   Subject has 30 days
to request a meeting and/or
submi t additional material to

explain, clarify, or resolve the

potential violations.
42 C.    R. section 1004.     50.
step 5 - Second meeting between

the PRO and the provider or

practitioner and/or review or

additional material submitted.



Step 6 - At the conclusion of the above process and following
consideration of all the information presented by provider or
practi tioner,                     if  the PRO comes to the conclusion that a violation
has occurred which should be the subject of a sanction action by

the Department, it is required to send
                                                             its recommendation for
imposition of a sanction and a supporting report to the OIG for

independent review. The PRO must notify the individual or entity

that there is an additional opportunity to submit information

regarding the violations, and that this information should be

sent to the OIG. 42 C. R. Sections 1004. 60-80.
Step 7 - After reviewing the PRO' s recommendations and any

addi tional material submitted by the provider or practitioner,

the OIG must determine: (1) whether the statutory and ' regulatory
requirements have been complied with; (2) whether an adequate
legal and medical basis exists for imposing a sanction; (3) the
appropriate sanction to be imposed. The OIG can exercise one of
several options. It        can:(1) sustain the PRO I S recommendation
in its entirety; (2) alter the recommendation; or (3) reject the

recommendation. If OIG fails to act within 120 days,        n ex­

clusion recommended by a PRO is automatically imposed.

The sanctions that the Secretary may impose on a provider or
practi tioner following a PRO I S recommendationare eithe ex­
clusion from participation in the Medicare program or, in lieu of
exclusion, the imposition of a monetary penalty as a
for continued eligibility to receive reimbursement under the
                                                                      conition
Medicare program. 42 C. F. R. Section 1004. 90.
Step 8 - A provider or practitioner who wishes to appeal the
imposition of a sanction has the right to a formal admnistrative
hearing in accordance with Section 205(b) of the Act. (42 U.
405 (B). This hearing, conducted 
            in accordance with specified
procedures (42 C. R. Part 405, Subpart 0), is               de novo , and the

                                                             (g)




entire factual basis of the case is presented to a Departmental
administrative law judge (ALJ). Each side may present evidence
and witnesses , and each has the right to cross- examination. The
ALJ is required to issue a decision sustaining, modifying, or
dismissing the sanction , and setting forth findings of fact and
conclusions of law. 42 c. R. Section 498. 74.
step 9 - Subsequent to the administrative hearing, review of the
ALJ decision by the Departmental Appeals Council may be re-
quested. 42 c.      Sections 498. 80-95.
Step 10 - After the Appeals Council renders a decision , a

provider or practitioner has a right to request judicial review

of the Department' s decision, in accordance with Section 205 

of the Act, 42 U.   C. 405(g).

(Source: Summary taken from the transcript of Inspector General

Richard P. Kusserow' s testimony before The House Committee on

Government Operations , Human Resources and Intergovernmental

Relations Committee , October 20 , 1987.

                                                            ... ,




                          APPENDIX VIII

                  SUMY OF     REcENT PRO-RELATED
                       LEGISLATIVE PROVISIONS
     STATUS OF IMPLEMENTATION OF COBRA 1985 PROVISIONS

Assistants at Cataract Suraerv


          Provides that no Medicare payment may be made for an

          assistant surgeon at cataract surgery unless carrier or

          PRO approves use of assistant before procedure is

          performed. Also prohibits physician from knowingly and
          willfully billing Medicare beneficiary if he or she has

          not obtained prior approval and where presence of

          assistant surgeon has been found to be unnecessary.

          Instructions for PRO review of this activity, effective
          with assistants proposed to be used after March 1,
          1987 , were issued to PROs on December 30, 1986 , and
          review has been implemented.
PRO Denials for Substandard Care


          Provides for denial of payment when a PRO determines

          that the quality of health care services rendered to a

          Medicare beneficiary fails to meet professionally

          recognized standards of health care. Also specifies
          that denials for care of substandard quality shall be 

          made only on the basis of criteria which are consistent

          with guidelines established by the Secretary.


          Formal rule-making process is being followed. Regula­
          tions are in the final stages of Departmental clearance
          and will be published soon.
PRO 100 percent Preprocedure Review


          Requires peer review on a preadmission/preprocedure

          basis of nonemergency cases for at least 10 surgical

          procedures. Second opinion will be required if PRO

          cannot make determination as to medical necessity of

          services.
          Formal rule-making process will be followed. Proposed
          regulations are still in process of Departmental

          clearance.
STATUS OF IMPLEMENTATION OF OBRA 1986 PROVISIONS


     Review of services provided 

                                 in hospital outpatient
     departments and ambulatorv suraical centers   Effective
     for PRO contracts entered into or renewed on or after
     January 1, 1987. This provision has been implemented
     by the Pennsylvania PRO, which entered a new contract
     period on July 1                       , 1987. It will
                                      be implemented by
     other PROs as they enter their next contract periods.

     Review of hospital denial notice     Implemented on

     December 1 , 1986 , as required by the statute.


    FIs must provide PROs with "timelv" monthlv informa­
    tion. or hospitals will be reauired to provide such
    information directlv to the PROs
    April 1, 1987.

                                       Effective
    Review of at least a sample of readmissions occurrina

    within 3l davs of discharae and anv intervenina post­

    hospi tal care  Effective for contracts entered into or
    renewed on or after January 1, 1987. This provision
    has been implemented by the Pennsylvania PRO and will

    be implemented by the other PROs as they enter their

    next contract periods.


    A reasonable proportion of PRO funds must be allocated

    to review of aualitv of care provided in all sett

    The HcFA has no plans for separate implementation of

    this provision. It will be implemented as part of

    other OBRA provisions.

    Review of HMOs/cMPS   The HcFA published a listing of

    States to be competitively bid in the
                                          Federal Reaister

    on January 6, 1987. Contracts have been awarded in
    those States where it is applicable. Review began
    July 1, 1987.
    The Secretarv is to identifv and make available to PROs

    methods of identifvinq those cases that are more likelv

    than others to be associated with substandard aualitv

    of care. and to provide at least 12 PROs with data and

    data processina assistance to per orm small-area

    anal vsis Both provisions effective upon enactment.
    The first is an ongoing activity. The HcFA has
    contracted with the American Medical Review Research

    Center (AMc) for the small-area analysis which will
    utilize feedback from 12 pilot PROs. Information is
    presently being gathered.

          PRO boards must include at least one consumer

          representative Effective with contracts entered into
          or renewed on or after January 1 , 1987. Officially
          implemented with new contracts , but most PROs have

          already implemented this provision.


          PROs must respond to beneficiarv complaints about poor
          aualitv care provided
                                                 in   all sett~
          October 1, 1987. PROs had already been required to
                                                                   Implemnted
          respond to complaints referred to them and will

          continue to do so. Clarifying regulations in process.

          PROs will be reauired to share (when reauested)
          information relatina to substandard care with state
          licensure or certification bodies and with national
          accredi tina bodies Effective April 1, 1987. Clarify­
          ing regulations in process regarding exchange of
          information with licensure boards. Clarifications
          regarding exchange with state Medicaid agencies have

          been published.
          Hospi tals. ho e health aaencies. HMOs and skilled
          nursina facilities will be reauired to have aareements
          with PROs. under which costs of PRO review activities
          are to be paid bv the Secretarv to the PRO   Effective
          October 1 , 1987. Will be implemented by the PROs as

          they enter their next contract periods.

Source: HcFA/HSQB/OMR.


     Other PRO-Relevant Leqislation


          The Medicare and Medicaid Patient Program Protection
          Act of 1987 greatly expanded the sanction and civil
          monetary penalty authorities under the Medicare and

          licensure boards.
          Medicaid programs. The bill also required the report­
          ing of all disciplinary actions made by State Dedical


         The recently enacted 1987 Omnibus Budget Reconciliation

         Act has made the following PRO changes:


                    three- year            PRO contracts with staggered
                                                                          exiration
                    dates;
                    a ban on informing Medicare beneficiaries of
                    substandard qual i ty payment denials before
                    offering providers the opportunity for
                    recons ideration;


                                       Federal Reaister of the
                    publication in the 


                    standards used for evaluating the PROs and any new

                                                 -----.-....




policy or proced e.---that substantially affects the
performance of contract obligations;

negotiation of appropriate contract modifications

before implementation of additional review

functions not included in the initial or renewed

contract;
provisions by the Secretary of regular   performance
reports to each organization comparing
performance with other PROs I ;
                                         its
a prohibition of automatic renewals of PRO

contracts held by out-of-State groups, provided

instate physician groups wish to compete;


requirement that the hospital notify the Medicare

patient when the hospital requests PRO review

because the hospital and the attending physician

do not agree that inpatient care is no longer

necessary;
a ban on physicians billing Medicare patients for

assigned claims denied for payment on grounds of

substandard qual i ty ;
a requirement that PROs, in establishing review

standards, take into account the special problems

associated with delivering care in remote rural

areas, the availability of service alternatives to

inpatient hospitalization, and social factors that

could adversely affect the safety or effectiveness

of outpatient treatment;


mandatory onsite review at 20 percent of rural
hospitals in a review area;
requirement that PROs offer for PRO physician to

meet several times a year with medical and

administrative staff of hospitals in their review

area;
requirement that PROs publish and distribute to

providers and practitioners, at least annually, a

report describing the types of cases the PROs

frequently determine involve inappropriate or

unnecessary care, services rendered in an inap­

propriate setting, or substandard care;

assessment of access provided to Medicare

enrollees in risk-sharing HMOs and CMPs and

                mandatory beneficiary outreach to inform enrollees

                about the role of the PRO and their rights;


                a provision encouraging PROs to use physician
                specialists in initial review of psychiatric and
                rehabil tation cases;

                emphasis, when evaluating PRO performance, on the
                PROs ' activities in educating providers and
                practi tioners, particularly those in rural areas,
                about PRO review and criteria;

                demonstration projects for the instruction and

                oversight of rural physicians, in lieu of imposing

                sanctions, through video telecommunications

                between Medicare teaching hospitals and rural

                hospitals;
                entitlement of a provider or practitioner located
                in a rural health manpower shortage area , or in a
                county with a population of less than 70, 000 to an
                administrative law judge hearing prior to being
                excluded from the Medicare program , to determine
                whether the provider or practitioner poses a
                serious risk to his or her patients;

                a report to Congress to include an assessment of

                sanction due process reforms agreed to by HHS, the

                American Medical Association , and the American

                Association of Retired Persons , as well as

                physician and provider responses to the improved

                procedures and an assessment of the appropriate

                balance between procedural fairness and the need

                for ensuring quality medical care.

Source:   conqressional Record--House , December 21, 1987.
                                          APPENDIX IX
                                   MEMORABLE "PRO-ISMS"

 We appreciated the candor and thoughtfulness with which in­

 dividuals responded to our questions about the PRO program.
 an effort to share more of those diverse opinions than could be

 integrated into the main body of this report , we offer the

 following examples of memorable opinions that we heard related to

 the PROs' quality review and sanction activities

 (i. e. "PRO-isms"

 In regard to quality review:


             "It' like      feeding the hungry--everyone agrees it is
             important,     but no one wants to go down to the mission
             and do it"     (from a PRO , CEO).

              Quality review is carried out too much and too long on
             the written record.. . the
                                      Government came in with a ball
             and chain and a meat ax" (from a medical community
             representative) .
In regard to the generic quality screens:


             They' re so good it'     s scary" (from a PRO medical
            director) .
            "They' re so frustrating, they make me scream" (from a
            PRO medical director).
In regard to the PROs ' upcoming review of care in nonhospital

settings:
            "They' re invading the last bastion of individuality"
             (from a State medical board representative) .
            "They will see us like a lynching squad in the

            community and we will meet with hostility" (from a PRO

            board chair).
In regard to health care
                                     in   rural versus urban settings:
            "Just because you I re out in the sticks , doesn I t mean
            you treat people differently" (from a PRO CEO).

            You simply cannot practice the same medicine in
           Muleshoe, Texas as Dallas , Texas. You can call that
           two-tier medicine or whatever you want" (from a medical
            communi ty     representative).
       ,._   .. .                     -_..._. ,..




In regard to the use of sanctions:


      It's important to remember that most doctors are
     competent most of the time and all doctors are
     incompetent some of the time " (from a medical community
     representative) .
    "Once you get a sanction in doctors I hands,
    hearts and minds will follow" (from a HcFA
                                                    their
    representative) . 

    "We have a moral obligation to underaccuse more than
    overaccuse" (from a PRO medical director).

    "The only way to affect physicians is through their

    back pockets" (from a PRO board chair).

    "They (sanctions) make us the most hated group in the
    State.. . but they(physicians) read their mail now"
    (from a PRO staff person).

    "They require us to have a lot of intestinal fortitude"

    (from a PRO CEO).

     y.!"..                                !\'           , _    /.     .;:            ::   ' . "




                                    APPE DIX X                       RE\ISED PRO                     T10   PROCEDl'RES


                        Peer
                        eVlew                                  I'
                                                                                                            Oe-;'

                                                                                                            H..,,
                                                                                                                  O M 'Ta
                                                                                                                      Ca' a
                                                                                                                            1 Of MII
                                                                                                                              S,..1"5
                       OrganizatiorP FIr                                                      ''v           "l:m,n;llIaI10n
                                                                                                                              F1nan;,nQ

  lIe';;.re             Manual
 Tra 5""illal No,                                                                                           Oa.. MAY 1987


                 ':r    A:"                      :5!:    PJ.:!'S                                   !P:' CED P CES
              le of Contentl

              Part 6
                   6-1 Clp.                                                   6-1 Clp.

     Se:tlon 6025
                      6-12 -6-12.                  (Cpp.                         6-11 - 6-12 (2pp.

              le of Contents
           12-1       Clp.                                            12-1    I1p.
                 t 12


              1bits 2-3
                12-7       - 12-8. C ClOpp.                                12-5 - 12-8 (C pp.

              ib1t 5
                   12-17 - 12-17. C                     (5 pp.                12-17 - 12-18 (2 pp.
              ibit 7
                   12-23 - 12-23. 1 (2 pp.                                    12-23 - 12-2C (2 pp.



                         RtS - EffE:;JVr D         ;E:         ey 12, 1967


    Section f:25, Pro;e              es fo
                                  D;s:.ss;ons with Provj                                           ers/Pre:tltloners
    Fclloo ;n:          ne 3     Letter S:oe:Hie in C2 C. R. SlOOC5C
                               D... t;:tic                                                                                     his
    section 6efines the p:oce "res the PRO is re uire6 to follow when hol
                                                                                                                               ing
       is:
         ssions with p:o..i er6/p:ectitioners subse "ent to .en ing the 30
    notice specifie in C2 C. R. 5100C. 50.

              ibits 2, 3, S, 7     el Letters    hese exhibits provi e the PRO with

              eJ letters to use in the following instances:


    Exhibit 2 - Initial Sanction Notice of . Substantial Violation in 8

                Substantial Num er , of eases,

    Exhibit 3 - Secon Sanction    otlce of Substantial Violation in 8
              , Substantial Number of Caaes.

    Zxhiblt 5 - Initial Sanction Notice of Grols 8n                                        Pl.grant Viol.tion.


    Exhibit 7 - PRO San:tlon - "o el Final Notice of S.nction.


                                     E R!         R!D TO USE THES! M DtL LETTERS





E:TA-P..       . 19
                                           ~~~




                           PEER R vIE             TJO                           OS-
    6:25




     :2,
r 6'FOLLO"JN              S FO, DJ SC SSIONS WJTH PROVIDERS/PRACTITIONERS'
                               iICE LEiiER SPECIFIED IN 42 C.       R. i
                THE 30



     The meetIng between the PR and a provIder or practItioner under 42

             R,              50 Is Intended to be a discussIon between the members of the
             and the provider or practitIoner regardIng the medical Issues raIsed

     by the PR               This medical dIalogue Is not desIgned to be a formal

     ad,ersarlal hearing. but It should afford the provIder or practItIoner a
     full and fair o portun\ty to present his/her vIews. The PRO has a
     crucIal duty to protect             edlcare patIents and the Medicare program . but.

     gIven the serious nature 6f the sanction . It also has a duty to allow the

     provider or practitioner to understand the basIs of the allegatIons and

     to provide an explanation of the challenged conduct. The purpose of the
     discussion Is to allow the provIder or practitioner to present hIs/her

     vlews'regarding the care rendered to Medicare benefIciarIes In the

     Identified caseS. to discuss those views with the PRO, and to respond to

     the PR s Initial determInation that such care faIled to comply wIth the

     statutory oblIgations of 51156 of the Socl.l SecurIty Act. 42 U.
       320c- 5. It Is also an opportunity for the provIder or practItIoner to
     address the Issue whether the provider or practitioner has the abIlIty

     and wIllingness to comply wIth such statutory obligatIons.


     The discussion between the PRO and the provider or practItIoner pursuant

     to 42 C.    R. 51004, 40 (followIng a 20- day notIce) Is Intended to serve

         I lar purposes to those discussed above. However , the dIscussIon
     following ' the 20- day notice may, at the PRO' s discretIon, be more
     Informal . sInce all providers and practItioners are entitled to a
     discussion under i1004, 50. wIth the procedures Set out In this section of

     the Manual . before I sanction can be recom ended to the Office of

     Inspector General.





                                                                                Rev. 1
                  _.--.._�...
                 ~~~




     C';.- E 7                           PEER REVJE   DRG   I2a1ID   MAN           6025 CCOMt,

r-   A full adver arlal hearIng before an administratIve 1a judge,
     not limited to the record created before the PRO, ts provided follo \ng
     the Im
                                                                                 hlch Is
                        ltlon of a sanction by OIG. At that time, the OIG. with the

     assistance of the recommending PRO, has the burden of proof , and the

     sanctioned provider or practitioner Is entitled to such procedures as the

     right to reQuest that the ALJ subpoena           Itnesses whO are necessary     or a

     full presentatIon of a case and reQuire that they appear , brtng

     documents, and testify. CSee 42 C. R. Part 405, Subpart 0.


     A.    tlce Prlor to a dIscussion with a provider or practItioner
     pursuant to 42 C.              R. 100 50 the PRO should Insure that the provider or
     practItIoner has been IMformed of the PRO' s Initial findings. tncludlng a
     clear state ent Of the factual bases for those findings. the purpose of

     the pro. sej meetln;. the p              tlal sanctions  hlch may be im osed, the
     Im. rtance of the dIscussion of the PRO sanction process, and the
     procedures appllcatle to the meeting, IncludIng the availability of the

     procedures outlined In the model letters. The notice should inform the

     provider or practitioner that he/she should bring to the meeting all

     relevant documentation (Including office records) regarding the cases in

     Question , and a la.yer and/or           \tnesses, tf destred. The written notice
     to be sent to the provider or practitioner pursuant to 42 C. R. SIOO

     should be sent by certified mal I , return receipt requested.


             N01E: The moeel                letters have been amended to conform with this
             section. See E.hlbits 2, 3, 5 and 7.

     8,      Attornevs                 The provider or practitioner ' may
                                                        have an attorney present
     at the discussion. The attorney     III be permitted to counsel the

     provider or practitIoner , assist the provider or practitioner tn the

     presentation of his/her witnesses, ask for clarification of PRO

     procedures and Questions posed to the provider or practitioner or e.pert

     witness, and present brief opening and closing statements. The attorney

     may ask Questions designed to clarify the basis for the PRO'

     conclusions. The PRO, however , may contr01 the scope, e.tent, and manner

     of Questioning. as appropriate, tf the Questions are unproductive or

     Irrelevant. ' are badgering, unduly prolonged, or otherwise tnapproprlate
         tone or nature. or for any other appropriate reason.


            Schedul In             and Conduct of MeetinQ

                    If a provider or practitioner requests a discussion pursuant to

                    42 C. R, S100 SO. the PRO should attempt to schedule the

                    meeting within 30 days from the date of re e'pt of the request,

                    unless the PRO, In Its discretion , determines that good cause
                    e.lsts to postpone the meeting, In the case of availability of
                    expert witnesses, - good cause " w\l1 require the provider or'



     Rev. 15                                                                            6- 12.
                                                                                                       , .�




:?: (C:;-                           PEER REVJE                       :ZLTJDN   LNJLL             OS-!7


        pra:tltloner to dem nstrate that reasonable efforts have been

           e to have Such   'tnesses available to testify wIthIn the 30
        day period. but that. delay. of the mInImum necessary duration
        Is justIfIed, To aid In prompt preparatIon for the discussion
        provider or practitioner , directly or through counsel
        dlsclese patIent re:ords to potential expert witnesses 
                              Ithout
        violating any non- disclosure                              requirements In the regulations.�
        The PRO shall seek to ensure that the objectIvity and judgment of
        all physlclan-     ers of the panel making any final PRO
        determInation of a violation under 42 c, R.    l004 60 shall not
        be affe:ted by either personal bias against, or dire:t economic
        com;etitlon  \th . the subject provider or practitioner.
        At the meetIng, the PRO shall afford the provider or pra:tltloner

           \th the o o.tunity to present expert testimony In either oral
        or    rltten form on the medical Issues presented with the
        assl stance of an attorney, but may reasonably limit the number of
           itnesses and length of such testimony. If such testimony Is

        Irrelevant or repetitive.
        The PRO shall be required to prepare a record of the meeting and
        make a copy available to the provider or practitioner when the
        PRO' s re:o mended sanction (If any) Is sent to the 01G. The
        record shall Include a verbatim transcript.

        A physician who, at the last stage prior to the meeting betWten

        the PRO and the provider or practitioner , was solely or primarily
        resp nslble for making medical judgments and developing the
        record and Initial findIngs to be used at the discussion shall
        not vete on the PRO' s final determination about whether or not to
        recomend a sanction to the OIG. (This does not apply, for
        example. to a physician . such as a PRO medical director , whO
        sum arlzes the views of other physicians In assembling the record
        and findIngs for use at the discussion.

        In the discretion of the PRO, It  ay be helpful for the phys\clan

        referred to In paragraph 5 to be present at the meeting In order

        to have an efficient and full discussion of the Issues relat'ng

        to the sanctIon recomendation.


  7. The PRO has no oblIgatIon to consIder any addItional Inf?rmatlon
     provided by the provider or practitioner subsequent to the
        meeting, However , prior to the end of the meeting with the PRO,
        If the provider or practitioner believes that .ddltlonal

        documentation exists which relates to the cases or Issues





12.                                                                                               Rev, 15
                                        PEE   REVI EW ORG   1 ZATIO            6025 (CO
C,- E7



                   discussed at the meeting. he/she may reQuest an additional period

                   of time, not to erceed S days. to submit the relevant Information

                   to the PRO, If the      concurs that the additional Information

                   to be proylded by the proYlder or practitioner Is relevant
                                                                          rant and

                   necessary to the Issues and cases discussed. It will v

                   additional perio: of time. not to exceed S days from the date of

                   the meeting. for the submissIon of this Information. The
                   proYlder or practitioner Is always entitled to submit additional
                   Information to the Office of Inspecto
 General
                                                                  . within the
                   tlmeframes authorized by 42 C. R. ,1004.
                                                            60(b)(2).

D,      Basis fO" Reco                 ende: Sanc ;on  1f the PRO determines. after the
d;scusslc            . tnat ,t          'il reco enO a sanctIon to the 01G. It shall
Include as an attachme"t to the Final Sanction Notice to the provider or
     ractltlone" (e.
                 ;tit 7) , Its Own clear statement of the factual bases.
fOr e        a c    Y i 01 at \ on ,




                                                                                      12.
     RtY '
               ...   ----   .--_ .,.                  ---



                                                            -h.
                                       APPENDIX XI
                            INTRODUCTION TO TABLES A - D

This appendix consists of four tables presenting analyses of
sanction data for the PRO areas (herein referred to as
Each table includes detailed footnotes which explain andStates).
                                                          qualify

the data as appropriate. The reader is cautioned
                                                  about
parisons among the tables which may include different    com­
 of

                                                      subsets
the sanction data. 

The following caveats are particularly important:


          While tables A and C include sanction data for doctors

          of medicine and osteopathy as well as for hospitals,

          tables Band D contain only sanction data for doctors.
          Therefore , the number of sanctions listed for each
          State will differ between the two sets of tables for
          those States that have referred hospitals for
                                                                  sanction.
         As of December 31, 1987, several States had referred
         sanction cases that were still pending action by the
         OIG. Therefore, the sum of the cases accepted and
         rejected on table C will be less than the numer of
         cases referred for sanction.

         All tables include two cases in which the physician

         referred for sanction died prior to an OIG sanction

         determination. These cases have been reflected as

          rejections" in the tables , but footnoted accordingly.


         In tables Band D, the total numers of physicians�
         listed per State are different because: (1)
                                                 � they

         represent different time periods , (2) include different

         definitions of " physician" ,and
         different data sources. We chose(3)to were obtained from
                                                use both sources
         of physician data despite these limitations because

         they are the most current data available.


         Because approximately 15 percent of the numer of
         physicians per State listed in table B are limited
         license practitioners (chiropractors , podiatrists and

         optometrists), the ratios of sanction referrals and

         acceptances per 1000 physicians listed are underestima­

         tions of the actual ratios per 1000 medical doctors.

         It was necessary to use such aggregated data because

         figures including only medical doctors were

         unavailable.
         The small numbers of sanction referrals and acceptances

         tend to inflate the numbers reflected in the "Percent"

         columns of tables A and D.

                             APPENDIX XI: TABLE A
            NUBER OF PRO SANCTION REFERRLS AND NUBER AND PERCENT
                     OIG ACCEPTANCES, BY STATE,       (1985-1987)
                             PRO                       OIG           PERCENT
                          REFERRLS (1)         ACCEPTANCES ( 1)      ACCEPTED
 STATE
 Arizona
                       GF (2) SNS (3) TOTAL
                          00 1. 00 3.          GF SNS        TOTAL    BY OIG

 Arkansas               00 3. 00 9.
                                                    00 1.00 1.00       33.
 California                                       00 1. 00 3.          33.
                    16. 00 3. 00 19.          12. 00 2. 00 *****       73.
 Colorado
 District of Columia 1. 00 0. 00 2.
                        00 0. 00 1. 00
                                                  00 0. 00 2.
                                                  00 0. 00 0.
                                                                      100.
 Florida
 Georgia (4)
                        00 1.00 3.                00 0. 00 2.          66.
                     1. 00 1. 00 2.                 00 1.00 1.00
      50.
 Idaho                  00 1. 00 1.                 00 0. 00 0.
 Illinois (4)           00 2. 00 4. 00'             00 1.00 1.00
      25.
 Indiana                  00 1.00 1.00
 Iowa
 Kansas
                          00 1.00                   00 1.00 1.00

                                                    00 1.00 

                                                                      100.
                                                                       56.
 Kentucky
                          00 2. 00 5.               00 1.00 3.         60.
                          00 4. 00 7.          1. 00 1. 00 2.          28.
 Louisiana                00 0. 00 1.             00 0. 00 0.
Maine                     00 1.00 1.00              00 1.00 1.00
    100.
Maryland
Michigan (4)
                          00 1. 00 1.               00 1.00 1.00
    100.
                          00 1. 00 3.
            00 1.00 1.          33.
Minnesota�              1. 00 0. 00 1. 00�        00 0. 00 0.
Mississippi               00 1. 00 4.          1. 00 0. 00 1. 00      25.
Missouri                  00 1. 00 3.             00 1. 00 1.
Montana                1.00 0. 00 1.00                                33.
                                                  00 0. 00 0.
Nevada                 1. 00 0. 00 1. 00          00 0. 00 0.
New Hampshire          1.00 0. 00 1.00            00 0. 00 0.
New Jersey
New York
                          00 1.00 4.              00 0. 00 2.         50.
                          00 0. 00 2.             00 0. 00 2.        100.
North Carolina (4)        00
North Dakota
Ohio
                          00 1.00   4.
                              1.00 1.00        1. 00 0. 00 1. 00
                                                  00 0. 00 0.
                                                                      25.
                          00 0. 00 6.             00 0. 00 3.         50.
Oklahoma
Oregon
                          00 2. 00 3.          1.00 0. 00 1.00        33.
                          00 0. 00 1.          1. 00 0. 00 1. 00     100.
pennsyl vania             00 0. 00 2.             00 0. 00 2.
South Dakota              00 1. 00 1.                                100.
Tennessee (4)             00 0. 00 3.
                                                    00 1.00 1.00     100.
Texas                                          1.00 0. 00    1.00     33.
                      23. 00 0. 00 23.        20.   00 0. 00 *****    86.
Utah (4)                  00 1. 00 1.             00 0. 00 0.
Virginia                  00 1. 00 5.             00 1.00 5.         100.
Washington                00 1.00 6.              00 1.00 4.          66.
West Virginia          1.00 1.00 2.            1.00 1.00 2.          100.
Wisconsin                00 1. 00 4.              00 0. 00 2.         50.
TOTAL                 ******36. 00 *151       68. 00 ***** *87        58.
Source: OIG/ Office of Investigations.

(1) Referrals and acceptances for hospitals and doctors of medicine
      and osteopathy through 12/31/87. Referrals include two
                                                                cases
      (CA and MO) in which the physician died before OIG decision.
(2) Gross and flagrant violations.
(3) Substantial number of substantial violations.
(4)� States with cases pending decision in OIG as of 12/31/87.
      TOTAL referrals and acceptances greater than sum of GF and SNS
      cases because referred and accepted cases include one
      lack of documentation.                                  (IA) for
Note: No sanctions referred for: Alabama , Alaska, American Samoa/
Guam , Connecticut, Delaware , Hawaii, Massachusetts , Nebraska
New Mexico, Puerto Rico , Rhode Island, South Carolina, Vermont,
Virgin Islands , and Wyoming.
                     APPE"DIX XI: TABLE B
          NUBER OF PHYSICIAN SANCTION REFERRLS        OIG ACCEPTANCES
              PER 1000 PHYSICIANS, BY STATE    (1985-1987)
                              NUBER     REFERRLS   NUBER        ACCEPTANCES
           NUBER OF         SANCTIONS   PER 1000 SANCTIONS       PER 1000
STATE      PHYSICIANS (1)   REFERRD     PHYSICIANS ACCEPTED      PHYSICIANS
                     816                      1. 38
                     656                      1.04
                     549�
                     595�
                     375�
                     229�
   (3)               569�
                 11, 266�
                     914�
                     977�
                     055�
                     110�
                 50, 537
                  2; 280
                     057
                 11, 922
   (3)�              644
                     382
                 13, 895
                     507
   (3)           10, 614
                     346
   (3)               612
                 24, 221
                 10, 625
   (2)           11, 743
   (2)           92, 000
                     555
   (3)           23, 654
   (3)               336
                     521
                     135
                 10, 256
                 11, 541
                 38, 285
                 50, 471
                 56, 899
                     924
                     271
                     132
                     729
                     773
                     746
                 29, 835
                     718
                     445
                     519
                     838
                     593
                     229
                     698
TOTAL           660, 599         139
_.,-­�.- .


                                          (COtTTINUED)

                                    APPENDIX XI: TABLE B
                  NUBER" OF PHYS1CIii SANCTION REFERRLS , OIG ACCEPTANCES,
                          PER 1000 PHYSICIANS, BY STATE (1985-1987)

         Source: OIG/ Office of Investigations and HCFA/ Bureau of Program

         Operations.
         (1) Includes  doctors of medicine , and osteopathy, and a limited
              number of chiropractors , pOdiatrists and optometrists eligible
              for Medicare reimbursement as of 1/1/87. Physician data

              unavailable for American Samoa/Guam, Puerto Rico, and the

             Virgin Islands.
         (2) Sanction referrals for this state include one instance of

             physician death before OIG decision.

         (3) States with cases pending decision in OIG as of 12/31/87.

                              APPEJDIX XI: TABLE C
                 NUBER OF PRO SANCTION REFERRLS, OIG ACCEPTANCES
                  AND REJECTIONS, !!Y STATE-- AND YEAR, (1985-1987)

                         PRO                  OIG                     OIG
                       REFERRLS ( 1)     ACCEPTANCES (1)      REJECTIONS (1)
STATE                1985 1986 1987      1985 1986 1987       1985 1986 1987
Arizona
Arkansas
California
Colorado
                               12
Dist. of Columbia

Florida
Georgia(2)
Idaho
Illinois (2)

Indiana
Iowa
Kansas
Kentucky
Louisiana
Maine
Maryland
Michigan (2)
Minnesota
Mississippi
Missouri
Montana
Nevada
New Hampshire

New Jersey

New York�
North Carol ina (2)�
North Dakota (2 )

Ohio�
Oklahoma�
Oregon�
pennsyl vania�
South Dakota

                       ol        ' 1
Tennessee (2)

Texas�
Utah (2)

                            14                  14                     '0

Virginia�
Washington�
West Virginia

Wisconsin�
TOTAL�                      74                  55                     19 �
 Source: OIG/ Office of Investigations.
(1) Referrals,   acceptances and rejections for hospitals and doctors
     of medicine and osteopathy through 12/31/87. Rejections include
     two instances (CA and MO) of physician death before OIG decision.

(2) States with referrals pending decision in OIG as of 12/31/87. 

Note: No sanctions referred for: Alabama, Alaska , American Samoa/Guam,
Connecticut, Delaware , Hawaii, Massachusetts, Nebraska, New Mexico,
Puerto Rico , Rhode Island, South Carolina , Vermont , Virgin Islands
and Wyoming.

                                   APPENDIX XI: TABLE D
          NUBER OF RURAL AND URBAN PHYSICIANS , PRO PHYSICIAN SANCTION
            AND OIG ACCEPTANCES, BY STATE AND PERCENT RURAL              REFERRLS
                                                            , (1985-1987) (1)
                    NUBER OF
               PRO                      OIG
                  PHYSICIANS (2)           REFERRLS (3 )          ACCEPTANCES (3.)
 STATE          RURL URBAN         RURAL   RURL URBAN      RURL    RURL URBAN        RURL
                  714 5 812
                  269 2, 046                               100
                  653 62, 029                                                        100
                  760 5, 975
                  106 22
                  948 7, 554
 GA (4)
 IL (4)
                  903
                  852 22
                         868
                            332
                            475
                                                           100
                                                           100
                                                                                     100

                 455 6      825                            100
                 445 3,     148                                                      100
                 227 3      047                            100
                 752 3,     955                                                      100
                 942 7      024                            100
                 821 1 401
                 467 13, 271
MI (4)           820 19, 428                               100                       100
Y.N              220 7 508                                 100
                 596 1, 533                                100
                 611 8, 967
                 789
                 161 1, 389
                        371
                                                           100
                                                           100
                                                                                     100
                                                                                     100

                   NA (5)
                 115    51, 601
NC (4)
ND (4)           393
                 827 7
                 089 19
                            712
                            693
                            920
                  172 4 174
                 166 4,     262                                                      100

                 606
                  257 26 725
                            352                            100
TN (4)
UT (4)
                 320 7,
                  343
                 320 2,
                            275
                        25, 798
                  786 9 379
                            544
                                             19                       17             100
                                                                                     100

                                                           100
                 059 7,     986                                                      100
                 799 1,     524                            100
                                                                                     100
                                                                                     100
TOTAL
                  592 7 026
              48, 355 383, 929               88
Sources: OIG/ Office of Investigations , PHS/ Bureau of Health

                                                                     55 �
Professions , and U. S. Bureau of Census.
(1) Rural areas defined as outside Standard Metropolitan Statistical Areas
     (SMSAs) listed in 1980 Census data. Urban areas defined as within SMSAs.
(2) Includes doctors of medicine and osteopathy practicing in 1985.
(3) Referrals and acceptances only for doctors of medicine and
     osteopathy through 12/31/87. Referrals include two instances
     (CA and MO) of physician death before OIG decision.
(4) States with referrals pending decision in OIG as of 12/31/87.

(5) Data not available.
Note: No sanctions referred for: Alabama, Alaska, American Samoa/ Guam
Connecticut , D. C., Delaware , Hawaii, Massachusetts, Nebraska, New
Hampshire , New Mexico , Puerto Rico , Rhode Island, South Carolina
Vermont , Virgin Islands, and Wyoming.
----,- -_...




                                          APPENDIX XII

               COMMNTS ON OIG DRAFT REPORT AND OIG RESPONSE TO COMMNTS
               We received comments on the draft report from the Administrator

               of the Health Care Financing Administration (HCFA); the Assistant

               Secretary for Management and Budget (ASMB); the Assistant

               Secretary for Planning and Evaluation (ASPE); the Director of

               Program Evaluation and Methodology of the U.
               Office (GAO); the Executive Vice President ofS. the
                                                                General Accounting
                                                                   American
               Medical Peer Review Association (AMPRA); and the President of the

               American Hospital AssociatioD (AH).
               We made a numer of changes based on these comments. Most
               notably, we eliminated a recomendation calling for the Secretary
               to be granted sole responsibility for determining the type and
               extent of sanctions to be imposed following PRO determination
               that the care in question is sanctionable.
               Below / we pre ent each of th recommendations set forth in our

               draft report. After each recommendation, we present all the

               comments that were directed to that recommendation and then our
               response to the comments. Subsequently,  we include additional
               comments by the reviewers ana, once again, our response.

                         The Department should submit a legislative

                         proposal to amend Section li56 of the PRO

                         statute to strengthen the monetary penalty as

                         an effective alterntive sanction by allowing
                         an imposition of a monetary penalty of up to
                         $10, 000 per violation for substandard,
                         unnecessary, or uneconomical care.
               HCFA Comments
               We agree and we will assist the OIG in preparing such a legisla­

               tive proposal.


               AHA Comments
               The AH is opposed to any efforts to increase the monetary

               sanctions against physicians I hospitals, or other health care
               entities (hereafter referred to as " providers" ) for rendering
               care which is determined to be substandard , unnecessary or
               uneconomical. The AH shares the desire that all patients
               receive high quality care rendered in an efficient manner , and

               recognizes that instances arise where medical and hospital

               services may be provided which are inappropriate in terms of

               quality or efficiency. It is our position, however, that
               monetary penal ties, at any level, are an ineffective mechanism to
               insure compliance with PRO standards.
There is no showing in the report that monetary sanctions could
be expected to have a positive effect on the pr
according to page 16 of the report, the OIG has apparently not
                                                                 am. In fact,
found monetary penal ties to be cost effective. Education and
monitoring to ensure compliance                   the way to i rove the quality
of care.                                       is

                        Monetary penal ties should be used only to reimburse
HCFA for services which were unnecessarily or poorly performed.
OIG Response:


The authority to impose a monetary penalty instead of
                                                                    an    ex­
clusion from participation in Medicare was enacted prior to the
advent of the prospective payment system for hospitals. Accord­
ingly,  it is now difficult in many cases to determine the " actual
or estimated cost" of substandard or unnecessary hospital-based

services for the purpose of imposing a monetary penalty.
Furthermore , because of the current statutory formula for
assessing a monetary penalty, the amount of such penalty is
frequently very small, appears to have little deterrent value,
and is disproportionate to the Federal Government I s cost
processing such a case. By authorizing a monetar penalty of up

to $10, 000, Congress would allow for a viable alternative to

exclusion from Medicare participation: the authority to impose
monetary penal ties commensurate with statutory vi lations.
                        The Department should submit a legislative proposal to

                        amend the PRO statute to provide that the failure of

                        physicians or providers to comply with
                                                                heir patient

                        care obligations under Section 1156, iu itself,
                        consti tutes a sufficient basis for sanctioning. Thus
                        the separate requirement that, in order to be sanc­
                        tioned, physicians or providers must demonstrate an
                                                              coply
                           unwillingness or lack of ability" to      substan­
                        tially with their obligations to Medicare beneficiaries
                        should be deleted.
HCFA Comments
We agree and we will assist the OIG in preparing such a legisla­

tive proposal.


AH Comments
The AH  is opposed to any efforts to weaken the standards used to
determine whether providers should be sanctioned. Removing the
 unwillingness or lack of ability" standard will result in a
fundamental shift in the PRO program I s emphasis: from education
and corrective action to punishment. This is inconsistent with
the fundamental purposes of the program and will serve to further
weaken PRO credibility.
The report states that one ' reason to remove the "
lack of ability to comply" standard is to " address unwillingness or
                                                      the confusion
relating to what constitutes ' unwilling or unable.
that this confusion would not exist however, if PROs '" were
                                                         We believe
instructed to perform comprehensive fact finding of the par­
ticular situation, resulting in a report detailing all relevant
facts , all discussions with witnesses and all conclusions
reached, including whether the provider is " willing and able" to
comply with the patient care obligations.

OIG Response:


Under the prior PRO statute, a failure to comply with the

 specified statutory violations was considered evidence of a

practioner' s or provider' s " unwillingness or lack of ability to
comply" with these requirements. Accordingly, the Department did
not have to make a separate independent finding on the un­
willingness/inabili ty issue. Under the current statutory
structure, the " unwillingness or lack of ability" requirement
makes it 


the AH calls
           quite  difficult, even with comprehensive fact finding as
                 for, for PROs and administrative law judges to
determine whether or not there is a sufficient basis for

sanction. By eliminating this requirement Congress would, we

still believe, allow for a more effective and efficient

administration of the sanction authority set forth in the

statute.
             The Department should submit a legislative

             proposal redelegating to the Secretary the sole

             responsibili ty for determining the type and extent

             of sanctions to be imposed following a PRO

             determination that the care in question is

             sanctionable.
HCFA Comments

We believe that this recommendation would weaken the authority

and credibility of PROs. The DIG study has not established that
inconsistencies in the type and extent of sanctions are a
problem. Redelegating this authority to the Secretary would only
add an additional level to the sanction process and would not
improve the consistency of decisions on whether or not to
sanction.
ASMB Comments

We would    appreciate seeing additional   information on the resource
and cost implications of the proposed      legislation, for both the
PROs and the Off ice of the Secretary,     in the final report on
sanction activities.
AHA Comments

The report argues that removing PRO input into the sanction

process will alleviate the "inherent" frustration and conflict in

the concurrent roles of the PROs as educators and enforcers.

disagree.
Local input is essential to the sanctioning process. PROs,

familiar with the facts            in issue and the provision of medical
care        in     the relevant area, are in the best position to understand
the particular situation and reach a conclusion about the
seriousness of any offense. As such, they are best able to
recommend any action which the OIG should take.

Further ,we do not believe that removing the reconmendation
function would alleviate any perceived conflict between the PRO'
educative role and enforcement role. PROs would still be viewed
as policemen, even if they were not viewed as district attorneys.
Removing PRO input into the sanction decision will also fail to

advance greater nationwide consistency in the application of

sanctions. The current system vests final sanction authority

with the OIG , which is free to reject PRO recommendations.

Inconsistent application of sanctions, therefore , results from

inconsistencies endemic in the OIG,  not PROs. Measures to assure
greater nationwide consistency in the application of sanctions
can most appropriately be established by promulgating clear,
consistent regulations which govern the sanctioning process and
which can be understood and followed by all PROs and the OIG.
Removing the recommendation function from PROs will only serve to
remove vi tal input into the sanctioning process.
OIG Response:


In view of the points and concerns raised in the above comments,
we have decided to eliminate this recommendation. While it
would, we believe, tend to promote greater nationwide consistency
in the application of sanctions, we recognize , as AH notes , that
it could remove an important local component to the sanctioning
process.
            The HCFA should explore and document the reasons
            for considerable variation     in   sanction activity
            among the PROs.

HCFA Comments


The changes to the next PRO scope of work should help to relieve

some of the variation that the OIG has identified. To this end

we have mandated a national quality intervention plan that must

be used by all PROs. The quality intervention plan will lead to

more consistency and uniformity in PRO interventions. After we

, have thenew scope of work in place for a period of time , we will
 revisit this issue if the OIG, at that time, thinks it necessary.
We believe that the OIG is the best entity to study the impact of

the Omnibus Budget Reconciliation Act (OBRA) of 1987 on sanction

activities because OIG retains the responsibility for pre-

exclusion hearings. We will be glad to cooperate in this

 endeavor.
AMPRA Comments

AMPRA supports but would appreciate reviewing study design.

AH Comments
Throughout the report the OIG exresses concern regarding the
variation in sanction activities among the PROs. The AH
supports further research into why this variation exists. Any
proposal for legislative change should follow such research and
suggested legislative changes contained in the report are
therefore, premature.

We suggest that one reason for any variations in sanction

activity is lack of clarity with respect to what constitutes a

sanctionable offense. As discussed below, the definition of

 professionally recognized standards" is ambiguous. We believe
that this and other flaws contained in the regulations and PRO
Manual  playa large part in the differing degrees of sanction
activity at the local level.
We do not believe that the recent amendment contained in the OBRA

of 1987 , which requires pre-exclusion hearings for providers

located in rural health manpower shortage areas or in counties

with populations of less than 70, 000 will  further inhibit PROs
from making sanction referrals. The report states that" (oJur
study suggests that enactment of the OBRA 1987 provision may
further inhibit the PROs from making sanction referrals to the

OIG due to the added complexity and delay it brings to the

sanction process.    (Report, p. iv) In fact, there is no data in

the report to support this conclusion. We believe that should

there be any reduction in sanction activities after the enactment

of this provision, it is most likely because additional fact-

finding has revealed that the particular offense is non­

sanctionable. For this reason, we strongly urge pre-exclusion
hearings for all providers , regardless of the geographic or

demographic characteristics of the area. 

As table A to appendix XI of the report indicates, the OIG
rejects 42 percent of all sanction recommendations. This
indicates that still further safeguards are necessary to protect

providers from unnecessary subjection to the sanctioning process.

Pre-exclusion hearings for all providers will serve this purpose.

OIG Response:

We have left this recommendation unchanged. For the reasons

stated in the text , we regard it as important to understand more
clearly the reasons behind the considerable variati n in PRO
sanction activity. Moreover, we continue to feel that the
responsibility for studying this recommendation rests more
directly with HCFA than OIG. The HCFA has the responsibility for
developing and overseeing procedures concerning the identifica­
tion of sanctionable activities. The OIG' s responsibility is to
respond to the referrals once sent to us and to
that can facilitate the referral process.

                                                          rener
                                                        assistance
               The HCFA should explore and document the reasons for

               the apparent higher rate of sanction reccmendations

               pertaining to physicians practicing in rual versus

               urban settings. As part of this effort , HCFA should

               study PRO review procedures to ensure that sanctionable

               activities by urban physicians are being identified

               when appropriate.

HCFA Comments

We have no reason to believe that PROs are not identfying
sanctionable activities by urban physicians. We also disagree
with your comment that the review (i. e., its sampling techniques)

is biased against rural physicians.


The requirement that each PRO review a certain percetage of each

hospi tal'   s Medicare admissions does not result
                                                     in    th PRO
reviewing a greater percentage of each rural physicin I s Medicare
admissions than a physician practicing in an urban hospital. The
PROs currently select a hospital-specific 3 percent random

sample. The random sampling (selection) technique    sed by PROs

and required by HCFA does not discriminate against large or

small, rural or urban hospitals. Over time, the s     le would

resul t in a 3 percent sample of discharges for each physician.


As in all random samples, chance plays a role in the actual cases
selected. The likelihood of a physician appearing in a random
sample is based solely upon the numer of bills he or she submits
and       is not dependent upon the size of the hospital. It is
possible that at a specific point in time , the cases selected
could be more heavily weighted towards one physicia while
another physician may not have any cases in the s8mle. It is
important to keep in mind , however, that this could occur whether

the physician practices in a small rural hospital or in a large

urban hospital. Thus, as the selection methodology is a purely

random sample without inherent biases , there is no reason to

assume that       it discriminates against physicians with respect to
the location of their practice.
The probability of identifying an inadequacy in a physician'
practice increases only when more of that physician' s cases are
rev iewed. Obviously, if the case load of a physician in a rural
hospital is greater than that of a physician in an urban hospi­

tal, then the rural physician has more cases reviewed and thus

stands a better chance of having a problem discovered--if indeed

a problem exists. However, if a physician treats the same numer
                                                            result in an equal numer
of cases being reviewed. Thus,it thewould
of cases              in an urban hospital,

                                                        probability of identification
of a problem is the same. If each physician treats fewer cases
then each physician has less chance of having a ' problem dis­
covered simply because there are fewer cases reviewed, whether

the setting is urban or rural. Frankly, we do not see this 

giving advantage or disadvantage to urban or rural physicians. 

physician only stands a better chance of having a problem

identified or being subject to more review if he has a dispropor­

tionate number of cases                     in any setting. The thrust of review
to the numer and type of cases. The important fact to note is
that the protection afforded to the patients will always be the
same , regardless of the number of admissions each physician has,
because the review is directed to the numer of total admissions
or of admissions of a certain type.

We do not believe that the criteria used by PROs contribute to

more rural physicians' cases failing the criteria than urban

physicians ' cases. The only criteria used by PROs are utiliza­
tion criteria. We have begun an intensive review of the PROs'
criteria sets. Our review, thus far, has not demonstrated that

there is any inherent bias in the criteria. The criteria are

used by medical review coordinators to screen potentially

aberrant cases for intensive physician review.

For quality review , the PROs use HCFA' s generic quality screens
as the screening tool (i. e., criteria). If a case fails a
generic quality screen, the case is referred to a PRO physician
for review. As you know, PROs are required to use , for final'

determinations about quality and utilization, a physician who

practices in a setting similar to the one in which the attending
physician practices. In addition, the PRO criteria are
validated by HCFA' s independent contractor, the "SuperPRO.
                                                                        furter
                                                               The
"SuperPRO" is an organization of health care professionals whose

responsibility is to review the accuracy of PRO determinations

and provide HCFA with an independent, professionally recognized

evaluation of PRO medical determinations.


The OBRA of 1987 added certain provisions which should augment
the PRO review process as it relates to rural areas. The


providers.
amendments include provisions that require , if necessary, a
change in the PRO standards in remote rural areas and a
particular emphasis on education of rural physicians and
As noted in the study, the actual numer of sanctions recommended
is too small to determine whether the apparent disproportion of
rural sanctions represents anything more serious than a statisti­
cal artifact from a small sample. Given that the OIG was unable
to identify a bias in the selection of PRO reviews and the
numerous OBRA mandated changes related to the review of rural
care and due process , any additional study of this issue would be
premature and unlikely to reach reliable conclusions.
AMPRA Comments

AMPRA supports.


AHA Comments
The AH is concerned about apparent disproportionate sanction
activity for physicians practicing   in rural settings. We support
efforts to study whether the sanctioning process is somehow

biased against rural providers and practitioners. We are not

convinced , however, that urban providers and practitioners are
somehow being reviewed in a more lenient manner, and that
sanctions should be increased in these areas to bring them into
line with a perceived " appropriate " level of sanctions in rural
areas.
We also will continue to strive to achieve uniformity between the

sanction regulations and the regulations that allow denial of

payment for substandard care. This does not mean , however, that

we are agreeing at this time to modify our position that the

beneficiary has to have an adverse outcome before a denial for

substandard care is effectuated.


DIG Response:


In response  o the HCFA comments, we must note that we did not

report that the process for reviewing quality of care problems is

biased against rural physicians and providers. Indeed, we

reported that a majority of the respondents felt that the review

system was free of such bias.


However, on the basis of our analysis we did find and report that
rural physicians have been sanctioned at a higher rate than urban
ones. For the reasons stated in the report, we continue to feel
that such an inquiry is warranted. Moreover, for the same
reasons stated in response to the previous recommendation, we

feel HCFA is best suited to initiate the inquiry.


                        A HCFA/OIG workgroup should be established to improve
                        communications about the PRO quality of care review and
                        sanction process. '
, .�




       HCFA Comments


       While we agree with the recommendation, ' we do not agree with the
       group' s charter as outlined in the draft report. We continue to
       believe that HCFA retains the responsibility for establishing the
       guidelines used by PROs in addressing quality of care problems.

       As in the past, we will continue to seek and analyze input from
       other sources (including the OIG) in defining and/or modifying
       these guidel ines for the PROs.

       AMPRA Comments

       AMPRA strongly supports.


       AH Comments
       The AH is supportive of this  effort directed towards   impr ving
       the qu lity of care review and sanction process.

       OIG Response:


       Upon further consideration, we have withdrawn our recommendation
       for a formal HCFA/OIG work group. We believe that ongoing
       communication on the kind of issues stated in the recommendation
       is vi tal to the effective performance of the PRO program.

       place.
       However, after discussing the matter with HCFA and OIG represen­
       tatives, it appears that improved communication can best be
       achieved in more informal ways, building on the links already in


                 The OIG should increase the number of regular

                 meetings and other communications with the PROs to

                 provide them guidance regarding their statutory

                 and regulatory sanction requirements.

       HCFA Comments
       We agree with this recommendation and are ready to assist the OIG

       in arranging these meetings.


       AMPRA Comments

       AMPRA strongly supports. We are particularly interested in
       improving communications between PROs and HHS Department lawyers
       in preparing for administrative law hearings.

       AH Comments
       The AH supports this recommendation. We believe, however, that

       any policies developed to provide the PROs with guidance regard­

       ing their sanction responsibilities should be promulgated via the

       regulatory process to provide for input from interested parties.

, '





       OIG Response:


       The OIG is committed to the meetings and communications called

       for in the recommendations. In this final report, this commi

       ment is stated as part of the introduction to the recomendations

       rather than as a recommendation in itself.


                 The OIG should issue regulations that will clarify
                 the scope of the PROs' authority to determine what
                 consti tutes professionally-recognized standards of
                 heal th care wi thin their jurisdictions.


       HCFA Comments

       We disagree. We believe that national standards such as those

       that would be developed by the OIG would need to be modified to

       take, into account, for example,the setting in which the care was
       delivered, amount of resources available as support to the
       attending physician, etc. We think the guidelines proposed in

       our regulation regarding denials for substandard care will

       strengthen the authority for the PRO to determine what

       constitutes professionally-recognized standards of health care in

       its area.


       GAO Comments

                 . . . the tenuousness of the link between sanctions
                 and health care quality makes the reader question
                 whether the OIG should be involved, as you
                 recommend , in issuing " regulations that will
                 clarify the scope of the PROs' authority to
                 determine what constitutes professionally-
                 recognized standards of health care within their
                 jurisdictions. Normally, this would seem to be a
                 function of the' relevant medical or professional
                 communi ty and the OIG'   si   vol vement, therefore,
                 would have to be justified, I presume, on the
                 grounds of knowledae that a stronger sanctions
                 process would cure the quality problems that have

                 been found. I would have felt more comfortable

                 with the recommendation if such knowledge had been

                 presented. As things stand , it seems to me that

                 this recommendation can be seen as going beyond

                 your data.
       AMPRA Comments

       AMPRA supports.

AHA Comments

The AH supports any efforts which can be directed towards
clarifying what constitutes " professionally-recognized standards
of health care.     Section 1154 of the Medicare Act (42 U. S.
S 1320C-3 (a) (6)) provides some guidance on this issue.
states that PROs shall " apply professionally-developed norms of
care , diagnosis , and treatment based upon typical patterns of
practice within the geographic area served by the organization...
taking into consideration national norms where appropriate.     The
statute further states that such norms shall take into account

"differing but acceptable" modes of treatment , methods of

facility under consideration.
organizing and delivering care and the type of health care


We believe that any efforts to clarify the definition of " profes­
sionally-recognized standards of health care " must take into
consideration regional variations in the provision of health care

services. Such consideration is mandated by the PRO statute, and
by case law interpreting the statute.               See. e. a..   Greene v.
Bowen , 639 F. SUppa 554 (E. D. Cal. 1986). There, the court
rejected the Department of Health and Human Service' s position
that the standard of care appropriate to a specific geographic

area was irrelevant to the determination of a gross and flagrant

violation.
Therefore, while we support efforts to clarify the definition of
 professionally- recognized standard of health care, " such
clarification must take into account regional variations concern­
ing methods of practice. The AH stands ready to work ' wi th the
OIG in developing requisite standards in this area.

OIG Response:


In response to the comments , we have revised the recommendation

to make it clearer that what we are calling for is further
clari ty in the professionally- recognized standards of health care
to which physicians and providers are expected to conform.
recognize that this is a complex issue calling for careful

consideration but it is vital to provide further clarity on it.

Toward that end , we are developing a specific regulatory proposal

and will issue it shortly for review and comment.


                       The OIG should develop an independent medical

                       advisory panel of outside medical experts that OIG

                       physicians may consult with in reviewing the PROs

                       sanction referrals to the OIG.


HCFA Comments


We agree but believe that a PRO physician should be part of the

panel, as he/she can best explain why the PRO is recommending the

.'




     sanction action (including an explanation of the local practice
     standards). If  the OIG plans to use only a national panel, this
     would cause problems as far as local practice patterns are
     concerned. In addition, the panel would have to contain
     specialists in all fields and the specialists would have to be

     further divided into urban and rural groups.

     AMPRA Comments

     AMPRA strongly supports.


     AHA Comments
     The AH supports this recommendation.   We believe that
     independent medical advisory panel will provide needed input into
     the sanctioning process, and will provide further expertise in
     evaluating situations referred by the PROs for sanction.
     OIG Response:


     Here again, as with the draft recommendation concerning meetings
     between the OIG and PROs , we have recast the recommendation as a
     statement appearing in our introduction to the recommendations.

     Additional Comments bv ASMB

     My staff and I are finding the series of OIG reports on Peer

     Review Organizations (PROs) useful in helping us better under-

     stand the PROs' mission and activities. We are also impressed

     with the attention to detail and data quality control found in

     the methodology sections. 

     We recently reviewed the second draft report on sanction

     activities. We concur with the report, but would like to
 request�
     that additional information on one of the recommendations

     provided in the final report.


     OIG Response:


     The recommendation addressed by ASMB was the one calling for the

     Secretary to be granted sole responsibility for determinig the
     type and extent of sanctions to be imposed following a PRO
     determination that ,the care in question is sanctionable. As
     noted earlier , we have eliminated that recommendation.
     ASPE Comments


     Thank you for the opportunity to review the draft report entitled
     "The Utilization and Quality Control Peer Review Organization
     (PRO) Program: Sanction Activities.     My primary concer is one
     of format rather than substance. Specifically, over 50 percent
     of this approximately 60 page report consists of appendices which
. ,�




       give background information on PROs and which are exactly

       duplicative of the appendices in the OIG report we reviewed a few

       weeks ago on PRO qual
                                                 vi ties.
                                         ty review acti        This draft report on
       sanction activities is the second in a series of three inspection
       reports assessing the PRO program. Rather than issue three
       reports which are largely duplicative of each other, I recommend
       that the three reports be consolidated into one comprehensive
       report which assesses the entire PRO program. This seems
       preferable to reiterating the same 30 pages of background
       information           in each " of the three documents. Further, consolidat­
       ing the reports makes particular sense given that the subject
       matters of the three reports are closely interrelated. For
       example , both the first report (on quality review activities) and
       this report (on sanction activities) discuss issues related to
       sharing information with State Medical Boards.


       Additionally, I have two minor suggestions with respect to this

       report specifically:
                  On page     iii,   the third sentence of the first
                  paragraph should be revised to refer to the
                  "inabili ty      or unwillinaness of rural physicians

                  and providers to correct substandard medical

                  practices identified by the PROs.         This proposed

                  change is in keeping with the statutory require­

                  ment that in order to be sanctioned, providers

                  must demonstrate either an unwillingness or lack

                  of ability to comply with their obligations to

                  Medicare beneficiaries.


                  Pages   i ii,   i v and v of the executive sumary 1 ist
                  recommendations made by the OIG with respect to
                  the sanction process. Pages 21, 22, and 23 of the
                  report reiterate the same recommendations ver­
                  batim, I recommend that they be put in the body of
                . the report and then just summarized in the
                  executi ve summary.
       OIG Response:


       We appreciate ASPE' s concern about format. We issued separate

       reports rather than one comprehensive report because that

       approach enabled us to present our findings and recommendations
       in a more timely manner. Since each report was, therefore , a
       stand-alOne piece, we decided to include the same background
       information in each.


       For those reading all three reports, we recognize that this

       manner of presentation can be tedious. For that reason, in our

       third report, we have incorporated more of the background

       information into the appendices.

                                                                                                       ._. .- .




 wi th respect to ASPE' s two other suggestions , we have made the

 suggested addition in the recommendation concerning rural

 physicians and providers , but have chosen not to present a more
 abbreviated set of recommendations in the executive
 Because the recommendations are somewhat complex, we feel that
                                                                               sumry.
 some explanation is important, even in the executive sumary.
Additional GAO Comments

This letter responds to your request of April 5 for my comments

on your draft report, "The Utilization and Quality Control Peer

Review Organization (PRO) Program: Sanction Activities.

Overall, I found the paper interesting and useful. It was a good

idea to take a discrete look at sanctions in the PRO program, I

think , because it' s always uncertain what emphasis will in fact
be placed on deterrence mechanisms when they are housed together
with service functions (e.g., when sanctions are located cheek by

jowl with education, as in the PRO program; or with incaBe

maintenance, as  in  certain welfare programs; or with protection,
as in some police programs). So it seems very worthwhile to
examine this question separately.

However,              because you' re looking at sanctions separately, it
becomes very important not to overestimate the value of deter­
rence (and underestimate the value of other factors) in creating

quality. Can the case be made, as your report seems to assume it

can, that there is a            tiaht
sanctioning physicians or providers generally, and quality of
                                                               cause-and-effect relationship between
care? To make that case, wouldn't we need to know more about
the actual distribution and kinds of quality-of-care problems (1)
that currently exist (so as to be able to infer whether sanctions

could solve them) and (2) the actual effects of a strong sanc­
tions process on (a) PRO performance and (b) quality of care?
What we are given in the report is people' opinions
                                                                                         that the
sanctions process strengthens the PROs' ability to carry out
their mission. But while I think most people would agree with

this      , it nonetheless provides only weak support for one

                                                                                             f your

recommendations.
Indeed , the tenuousness of the link between sanctions and health

care quality makes the reader question whether the OIG should be

involved, as you recommend , issuing " regulations that will

clarify the scope of the PROs' authority to determine what

consti tutes profp.ssionally-
within their jurisdictions. recognized   standards of health care
                                 Normally, this would seem to be a
function of the relevant medical or professional community and
the OIG' s involvement, therefore, would have to be justified
presume , on the grounds of   knowledae that a stronger sanctions
                                                                                          ,I
process would cure the quality problems that have been found. I
would have felt more comfortable with the recommendation if such
knowledge had been presented. As things stand, it seems to me

that this recommendation can be seen as going beyond your data.


In the same way that this recommendation would have been bolster­

ed by more documentation of the specific quality problems PROs

have reported, I think your other recommendations would have been

helped if more distinctions had been made among respondents in

your presentations of data. In many cases , combining all the

responses masks important information which thereby gets lost.

The reader is interested not only in general results , but also

wants to know , say, how the perceptions of PROs may differ from

those of the various external entities (p. 12), or how respon­

dents may vary in citing reasons for differences in sanction

activity  (pp. 13-14). Such a breakout
                                            given in the report in
one case (pp. 16-17) and differences between groups were impor­
tant to understand. figure V especially (p. 19), should be
desegregated and broken out by type of respondent.

Finally, two technical notes. First, you' ve probably corrected
this already but there is some inconsistency in the presentation
of the numbers (given first on p. 11) as the reader proceeds
through the report. Second, you may want to update your

description of our work on p. 33 by a reference to the final
report, Medicare: Improving Quality of Care Assessment and
Assurance, GAO/PEMD-88-10. This is scheduled to be published
April 29.  Also, you could update your reference to our PRO
effectiveness work by saying that PEMD' s evaluation of PRO
quality and utilization review activities is underway and
preliminary descriptive findings are expected in late 1988.
OIG Response:

We accept the caution about overestimating the value of sanctions

and deterrence. We recognize that there is not necessarily a

tight cause-and-effect relationship between sanction activity and

quality of care.  Indeed, we point out in the report that a
reduction in PRO referrals may mean that the PROs are
successfully addressing quality problems through the education

process. It may also mean that the financial and political costs

associated with sanctions are too high. Clearly, this is an area

warranting further study.

On the matter of making more distinctions by type of respondent,

we recognize that further detail of this kind can be useful. 

the same time, we must impose some limitation in how much we

include on one report. Where significant differences appeared

among respondents , we did indicate those differences in the text.


On the two technical notes mentioned, we added brief

clarifications that explain the inconsistencies in sanction data

reported. Also in accord with GAO' s suggestion, we have made
updates to reflect the more recent GAO work.
 Additional AMPRA Comments

 On behalf of the American Medical Peer Review Association

 (AMPRA), I appreciate the opportunity to comment on your draft
 report entitled , "The Utilization and Quality Control Peer Review
 Organization (PRO) Program: Sanction Activities.
AMPRA concurs with the major findings of the report.
against drawing conclusions about the variation in theWe caution
sanction recommendations by PROs until further study. numer of
                                                         The
absence of a low number of sanction recommendations is not
 tsel f, an                                                  , in
             indicator of poor performance; it may indicate just
the reverse. AMPRA appreciates the report' s recognition of the
problems PROs face in interpreting statutory and regulatory

requirements , particularly the meaning of providers' " unwilling­
ness or lack of ability" to comply with Medicare obligations.
are pleased that most respondents in the study agreed with
AMPRA I S long standing position that the PRO review
                                                     process" is
free from systematic bias against rural physicians and
providers. "
The report's recommendations are , on the whole , well conceived
and may provide needed solutions to some remaining   problems with
the PRO sanction process.
OIG Response:

We agree on the need for further study on the reasons for the

considerable variation in sanction activity among the PROs.

Addi tional AHA Comments

I want to thank you for the opportunity provided to the American

Hospital Association (AH) to comment on your draft report

entitled " The Utilization of Quality Control Peer Review
Organization (PRO) Program: Sanction Activities" (the report).
The review activities of PROs are an issue of great concern  to
our members , and one which we are following closely.
                                                       We agree
that the PRO review process is an important tool to ensure  the
provision of efficient, quality medical care to Medicare

beneficiaries.
In order for the PRO sanction process to achieve its objectives

however , it appears that a numer of significant changes will be
necessary. We agree with many of the findings and certain of the
recommendations contained in the report, and believe that by

raising the subject and providing a framework for discussion, it

makes a useful contribution.


We have fundamental concerns and differences , however, with

various of the positions and recommendations stated in the

document. Chief among these concerns is the apparent lack of

                                                            ..,-_...     .- ,         -_..




                                                                       co.

 sensitivity to the need for due process safeguards in the

 sanction process. Given the severe nature of the sanctions which

 may be imposed, the provision of such safeguards is essential.

 The report , however, appears to take the opposite view , seeking

 ways to relieve the " cumbersomeness of the due process

 procedure. "
 We are also concerned about what we perceive as an underlying

 thrust of the report--to increase sanction activity as a goal in

 itself. The AH believes that PROs can review the provision of
 care in a manner which is not punitive to practitioners and
 providers rendering that care. The PRO program was established
 in large part to educate providers about ways to render efficient
 and high- quality medical services. PRO concerns echoed through-
 out the report regarding ways to emphasize this educative role
 are poorly served if PROs are urged to increase their sanction

 statistics at all costs.


The report puts forth what we consider to be the false notion

that the PRO program can be improved by authorizing monetary

penal ties, central iz ing important functions in the Office of
Inspector General, and reducing procedural safeguards.
believe that each of these actions would be counterproductive.

Instead, the AH believes  the following to be essential for the
improved performance of the PRO program:

                        that the educative role of PROs be re-emphasized,

                        including a restructuring of sanctions away from

                        punitive measures and towards corrective action;

                        that the authority to review cases and recommend

                        sanctions be retained by the individual PROs; and


                        that the PROs be given detailed guidelines in the

                        form of regulations setting forth standards

                        against which provider performance is judged, and

                        detailing the due process procedures to be used

                        throughout the review process.

These steps taken together will ensure that the reviews 


sanctions are undertaken at the most appropriate level--the local

                                                                                and
PRO--where the familiarity with each case and situation is the

greatest. They will provide both the PROs and those subject to

review with a clear understanding of their duties and rights
                                                             , and

will enable the PROs to undertake progressive, remedial actions

which can correct problems at an early stage , rather than waiting

for them to reach maj or proportions. They will ensure that
                                                             those
insti tutions and persons coming to the attention of the OIG and
facing, potentially severe reprisals will receive rights and
protection commensurate wi th the sanctions.
                                                    ----




These and other recommendations, as well as the comments of the
AHA to the recommendations made 

                                in the report , are contained in
the attached document which is made a part of this letter.

We believe that the opportunity is now at hand to discuss a wide

range of issues concerning PRO performance, and to initiate steps

which will ultimately lead to improved pa ient care. We look

forward to working cooperatively with you and the other inter­

ested parties in this regard.

OIG Response:


We agree on the importance of educational efforts. We also
believe that there is an important role for sanctions if PROs are
to do an effective job   in  protecting Medicare beneficiaries. Due
process safeguards are vital in this process. At the same time
it is , we believe quite    legitimate and important to identify
ways in which the sanction process can be carried out more
efficiently and effectively.

It is important to recognize that the section 1156 implementing
regulations (42         C.    R. Part 1004) have been drafted to assure
adequate due process for providers and physicians while
protecting the right of Medicare beneficiaries to receive high
qual  ty health care. The existing sanction procedures have been
upheld , to date , by each U. s. Court of Appeals to review them.
See  Varandani vs. Bowen , 824-F. 2d 791 (9th Cir., 1987),                   Cassim
vs. Bowen 824-F. 2d 791 (9th           cir.,          1987), and  Dovle vs. Secretarv
of Health and Human Services ---- F. 2d                          (1st Cir., June 3,
1988). See also            Koespel vs. Heckler , 797 F. 2d 858 (loth Cir.,
1986) and, Ritter vs. Cohen , 797 F. 2d 119 (3rd Cir., 1986).
